<html>
<title> - U.S. FISH AND WILDLIFE SERVICE: FISCAL YEAR 2004 BUDGET</title>
<body><pre>[Senate Hearing 108-346]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-346

                    U.S. FISH AND WILDLIFE SERVICE: 
                        FISCAL YEAR 2004 BUDGET

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WILDLIFE, AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

 REVIEW OF THE PROPOSED BUDGET FOR THE U.S. FISH AND WILDLIFE SERVICE 
                          FOR FISCAL YEAR 2004


                               __________

                             MARCH 18, 2003


                               __________


  Printed for the use of the Committee on Environment and Public Works




91-498              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 18, 2003
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     5
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     2
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......     4
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     8

                                WITNESS

Williams, Hon. Steven A., Director, U.S. Fish and Wildlife 
  Service, U.S. Department of the Interior; accompanied by Hon. 
  Marshall Jones, Deputy Director, U.S. Fish and Wildlife Service     7
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Baucus...........................................    30
        Senator Crapo............................................    24
        Senator Graham...........................................    29
        Senator Inhofe...........................................    30
        Senator Jeffords.........................................    32
        Senator Murkowski........................................    33

                                 (iii)

  

 
                    U.S. FISH AND WILDLIFE SERVICE: 
                        FISCAL YEAR 2004 BUDGET

                              ----------                              


                        TUESDAY, MARCH 18, 2002

                                       U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:01 a.m.in 
room 406, Senate Dirksen Building, Hon. Michael D. Crapo 
[chairman of the subcommittee] presiding.
    Present: Senators Crapo, Thomas, and Jeffords [ex officio].

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. The hearing will come to order.
    Good morning. This is the hearing on the U.S. Fish and 
Wildlife Service budget of the Fisheries, Wildlife and Water 
Subcommittee of the Environment and Public Works Committee.
    I welcome everybody. First, I want to apologize for the 
fact that the hearing has been delayed for one hour. I know 
that that has caused everybody to alter their schedules. It 
probably will cause us to have a lower attendance at the 
hearing because other Senators' schedules have not been able to 
be changed accordingly.
    In fact, one of the things that has delayed this hearing is 
the fact that we have the budget on the floor of the Senate 
right now, as well as a number of other issues going forward, 
that will cause most of the Senators who would otherwise have 
been here to have to readjust their schedules the best they can 
and be elsewhere as well.
    But, in any event, I appreciate that you, Mr. Williams and 
Mr. Jones, adjusted your schedules to make yourselves available 
on such short notice with our changed scheduling.
    I should say that, for those members of the subcommittee 
who could not make it today, we will be certain to make sure 
their statements can be submitted for the record and provide 
the Fish and Wildlife Service with any written questions that 
subcommittee members who aren't able to be here would like to 
submit to you for answers in writing.
    Today the Subcommittee on Fisheries, Wildlife and Water 
will hear testimony from Steven A. Williams, the Director of 
the U.S. Fish and Wildlife Service, and I understand that 
joining you, Mr. Williams, will be Marshall Jones, the Deputy 
Director of the Fish and Wildlife Service. Mr. Jones, we 
welcome you with us here as well.
    This subcommittee, in my opinion, is long overdue in its 
oversight of the Service's budget. The budget justifications 
that each agency publishes are very useful tools for 
understanding the request levels, the priorities, and the 
policy direction that the agency and the Congress are giving to 
the issues under the jurisdiction of the Fish and Wildlife 
Service.
    I did want to note that, as often happens to us, the 
documents that we need for this process which are critical for 
examining the agency's plans and spending priorities were very 
late in getting to the committee. This is an issue which we 
deal with constantly in terms of needing the materials we need 
for review with the committee. Without these budget 
justifications, it is very difficult for members of the staff 
and the committee members to prepare for budget hearings and 
reviews like this.
    Most of us got the green books just late Friday afternoon. 
I would expect that in the future we won't see that kind of 
delays or situations where we face several hundred-page 
documents to deal with just a few days before a hearing.
    For several years now, the Fish and Wildlife Service has 
been forced to dedicate a significant portion of its Endangered 
Species Act-related budget to resolving court orders and court-
approved deadlines as a result of litigation. The vast majority 
of this litigation is aimed at procedural aspects of the 
Endangered Species Act, not substantive protections or recovery 
actions.
    If preventing extinction and recovering species is truly 
the goal of this law, then we have our work cut out for us 
because the Fish and Wildlife Service has very little in the 
way of discretionary funds to prioritize species with the 
greatest needs or those who would benefit the most from 
conservation actions. Instead, the courts, rather than 
biologists, drive the species which need attention because of 
the litigation.
    It has been a long time since we have had a serious 
discussion with regard to the Endangered Species Act and its 
reform. For far too long, the ESA has been insufficient in its 
implementation and ineffective at accomplishing its objectives, 
but there simply hasn't been a political will to make the 
changes necessary to improve it.
    Whether it's the designation of critical habitat, the 
Section 7 consultation process, or habitat conservation 
planning, there are many components of the Actthat were good 
ideas in theory, but just have not been working in practice.
    It is appropriate to hold the subcommittee's first hearing 
on this budget because the budget priorities reflect, in my 
opinion, many of the failures of the Endangered Species Act. 
Although I am a critic with regard to much of the Endangered 
Species Act and the way it is being implemented, I certainly 
recognize that there are many successful programs that the U.S. 
Fish and Wildlife Service does carry out, including the 
National Wildlife Refuge System.
    Just last Friday, the Refuge System celebrated its 100th 
anniversary at the place where it started, Pelican Island, 
Florida. The Refuge System has been enormously successful in 
conserving wildlife habitat in this country. We need to find 
solutions that will make the threatened and endangered species 
a success story, just as the Wildlife Refuge System has been.
    I intend to ask a lot of pragmatic questions about the 
Endangered Species Act and to introduce legislation to foster 
debate during this Congress. The only way to sustain our 
Nation's fish and wildlife and its plants is to make sure that 
the Endangered Species Act works better for species and for 
people. It is my hope that this committee will address the 
failures of the Endangered Species Act through the practical 
reforms that we will propose.
    Director Williams, again, we appreciate your joining us, 
and following the introductory statement of Senator Jeffords, 
we will proceed with your testimony.
    Senator Jeffords?

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Senator Crapo. I would like to 
join you in welcoming the Assistant Secretary, Steve Williams. 
I think this is the first time he has appeared before this 
committee since his confirmation hearing.
    Last week's celebration of the Centennial of the National 
Wildlife Refuge System is a testament to the fine work of the 
Fish and Wildlife Service. In these difficult fiscal times, the 
Service budget request for the year 2004 is nearly $4 million 
more than requested last year. While I have concerns about some 
of the funding requests and reductions, I am confident that the 
Service's request will focus us on their mission to work to 
conserve, protect, and enhance fish, wildlife, and their 
plants, and their habitats for the benefits to the American 
people.
    We need to continue to protect and conserve our valuable 
resources by committing adequate fiscal resources to get the 
job done. I look forward to your testimony.
    Senator Crapo. Thank you, Senator Jeffords, and I 
indicated, before you arrived, I apologized for the 
inconvenience in having to readjust the timing for our hearing 
today, but I appreciate your adjusting your schedule and being 
able to be here.
    Senator Jeffords. No problem.
    Senator Crapo. Before we turn to you, Mr. Williams, I have 
been asked by Senator Inhofe, the chairman of the full 
committee, to read a brief statement. This will give you an 
indication of one concern he has with your budget.
    So on behalf of Senator Inhofe, I would like to read the 
following statement. He has been detained, and because of the 
change in the timing of the hearing, has not been able to make 
it himself personally. His statement reads:

    Fish and Wildlife Service has proposed expanding the Ozark 
Plateau National Wildlife Refuge in northeast Oklahoma by 
nearly 12,000 acres. This proposal has been met with opposition 
from many local citizens.
    I am currently opposed to this proposal, as I am concerned 
about how the Refuge's expansion would impact the area's tax 
base. In tough economic times such as this, I cannot support an 
initiative that would potentially harm the local communities.
    What is the current status of this proposal and what can be 
done to address those concerns? And is it true that some of the 
money for the Refuge may come from funds set aside for the Tar 
Creek remediation?
    Thank you, and I would appreciate a response at your 
earliest convenience.

    Senator Crapo. I am certain that we can get you a written 
copy of this statement, so you have the questions that Senator 
Inhofe has asked, so you can respond to him on that.
    [The prepared statement of Senator Inhofe follows:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma

    I would like to welcome Director Steven Williams for coming today 
to discuss the proposed budget for the Fish and Wildlife Service. It 
has been some time since the committee has held such a hearing, and I 
am looking forward to hearing from you regarding the funding of some of 
the projects at the Fish and Wildlife Service.
    However, I would first like to bring to your attention a problem 
back in my State of Oklahoma. The Fish and Wildlife Service has 
proposed expanding the Ozark Plateau National Wildlife Refuge in 
northeast Oklahoma by nearly 12,000 acres. This proposal has been met 
with opposition from many local citizens. I am currently opposed to 
this proposal as I am concerned about how the refuge's expansion would 
impact the area's tax base. In tough economic times such as this, I 
cannot support an initiative that would potentially harm the local 
communities. What is the current status of this proposal and what can 
be done to address these concerns? Additionally, is it true that some 
of the money for the refuge may come from funds set aside for the Tar 
Creek remediation?
    As I have stated in the past, I am a strong believer in cost-
benefit analysis and strong science. It is critical that we get the 
most from our money, and I feel it is important to promote programs 
that have a proven track record. I am pleased that the Service has 
demonstrated a commitment to providing performance information to 
highlight projects that deserve additional funding. By knowing which 
projects work best, we can strengthen proven investments.
    As this year is the centennial anniversary of the National Wildlife 
Refuge System, I am pleased by the renewed commitment to our nation's 
natural heritage and support the $25.5 million increase in requested 
funding from fiscal year 2003. It is my understanding that there is 
currently a tremendous maintenance backlog for current refuges. 
Hopefully, this increase will assist in alleviating this problem.
    Additionally, there are a number of partnership programs that I 
feel are extremely important. There is one in particular I would like 
to bring to the committee's attention the Partners for Fish and 
Wildlife program. This is a voluntary initiative that works with local 
landowners, the people who work and know the land, to help promote 
habitat restoration projects on their property. And I am pleased that 
the budget request increases funding for this program by $38 million.
    I would also like to take this opportunity to express my concern 
with the difficulties the military has faced as a result of the 
Endangered Species Act. The Armed Services have acted as stewards of 
their lands. As a direct result, the property where they train has 
become home to a number of endangered species. Unfortunately, ESA has 
become an obstacle to training our men and women who so bravely protect 
this nation. These obstacles could cost the lives of those who serve 
us--this is completely unacceptable. I believe that military 
encroachment is a serious issue that must be dealt with now.
    As we are on the brink of war with Iraq, military readiness is more 
critical than ever. Unfortunately, the ability to train our troops has 
become limited due to current environmental law. This problem will only 
get worse over time unless addressed immediately. Already the Armed 
Services train in fear of a court ordered injunction as a result of 
environmental litigation--litigation that seeks to extend current law 
beyond what was intended by Congress.
    The proposed Department of Defense legislation would not exempt the 
military from the Endangered Species Act. The Armed Services would use 
Integrated Natural Resources Management Plans, or INRMPs, in 
coordination with the Fish and Wildlife Service, in place of critical 
habitat designations. Our service men and women risk their lives to 
preserve the freedoms this nation holds dear. At the very least, they 
deserve the best available training.
      
    [The prepared statement of Senator Murkowski follows:]

Statement of Hon. Lisa Murkowski, U.S. Senator from the State of Alaska

    Thank you, Mr. Chairman, and thank you, Mr. Williams, for coming 
this morning. I am looking forward with great interest to your comments 
on the Fiscal Year 2004 budget of the Fish and Wildlife Service.
    As you know, the activities of the Fish & Wildlife Service are 
important to all residents of Alaska, and often become highly 
controversial, as the Service struggles to balance the variety of 
interests it must serve.
    Mr. Chairman, you may recall that my State of Alaska is one of 
those western States that is dominated by a pattern of Federal land 
ownership which makes doing business a very different experience than 
in States that are dominated by privately held lands. The Federal 
government owns 65% of the land mass of the State of Alaska a figure 
equaled only by your own State of Idaho and exceeded only by Nevada.
    Among other elements, Alaska has the sometimes dubious distinction 
of hosting fully 88% of the total acreage of the National Wildlife 
Refuge System. We have one refuge the Yukon Delta which is the size of 
the State of Maine. Although we have only 4% of the Refuge System's 
more than 500 components, we have more than 88% of the total acreage. 
In fact, by the time all land conveyances under the Alaska Native 
Claims Settlement Act are complete, the Refuge system will own more 
than one-fifth of my State more than 120,000 square miles of land equal 
to the entire State of New Mexico.
    The Service's influence on Alaska does not stop with its management 
of Refuges, of course. It is intimately involved with the day to day 
lives of Alaskans as it manages subsistence fishing and hunting 
activities under the Alaska National Interest Lands Conservation Act. 
Its involvement in the land-use permitting process is one of the keys 
to whether Alaska will ever enjoy the benefits of efficient 
transportation, energy distribution, and communications systems. In 
short, it has a very significant effect on the ability of individual 
Alaskans to earn their livelihoods from one day to the next, and its 
impact can run the gamut from a soft pat to a harsh blow.
    Finally, let me note that I understand you have recently named Mr. 
Rowan Gould to be the new director of the Alaska region. I look forward 
to meeting him in a few days, and to working with you both in the 
months ahead.
      
    [The prepared statement of Senator Baucus follows:]

  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana

    Thank you, Mr. Chairman, for calling this important hearing on the 
U.S. Fish and Wildlife Service's budget. The activities of the Fish and 
Wildlife Service have a tremendous impact on my State and I appreciate 
the opportunity to discuss some important funding issues with our only 
witness today, the Director of the U.S. Fish and Wildlife Service, 
Steve Williams.
    First, I was pleased to hear from Director Williams that the 
Service will move ahead with its final rule to down-list the gray wolf 
to threatened status. Gray wolf recovery efforts have been a success. 
Wolf populations in the Northern Rockies are now healthy and growing. 
It just makes sense to implement the Endangered Species Act as 
intended, which means removing the wolf from the list of threatened and 
endangered species, and returning management control over the wolf back 
to the States.
    I was particularly pleased that the final rule will allow for 
increased management flexibility for State and federal wildlife 
officials in order to reduce conflicts between wolves and livestock. 
However, Montanans are anxious to begin managing the wolf themselves. 
Because the gray wolf recovery program has been such a success, and 
wolf populations are so healthy, we've seen more and more wolves in 
Montana. This raises more and more concerns about livestock 
depredations, or attacks on domestic pets. It's past time for Montana 
to take over full management responsibility for the wolf. That means 
de-listing the wolf in Montana and/or the Northern Rockies region, or 
providing some other regulatory mechanism that would allow this to 
happen.
    Montana has developed a wolf management plan that, from what I 
understand, is very good. Yet, Montana has to wait as the Service moves 
forward with a proposed plan to delist the wolf nation-wide. The 
Northern Rockies, and a few other States such as Minnesota, have born 
the brunt of wolf recovery efforts. We have healthy populations right 
now. I don't see why we can't move forward to delist the wolf in these 
areas where we have healthy populations, so that the States can have 
the flexibility and authority that they need to best manage wolf 
populations for the benefit of their citizens.
    I know that Montana has concerns about the financial costs of 
assuming management of the wolf, and that is a legitimate concern. This 
is an issue that I'd like to continue to explore with the Service as we 
move towards giving management of the wolf back to Montana.
    In general, Mr. Williams, I'd like to raise several concerns with 
you about the status of Fish and Wildlife funding and staffing levels 
in Montana and Region 6. During your confirmation hearing, I asked you 
to look into the fact that Montana seems to have received the very, 
very short end of the stick when it comes to the Fish and Wildlife 
Service's staffing and budget. I asked your immediate supervisor, Craig 
Manson, and the Assistant Secretary of the Interior, Lynn Scarlett, the 
same thing. Everyone promised to look into this problem. So far, 
nothing has happened. I received a short note from Ms. Scarlett over a 
year ago, telling me that the situation warranted a closer look by the 
Service and the Department of Interior, but again, nothing has 
happened.
    Mr. Chairman, this situation is getting out of hand. Montana has 
only 18 permanent and 5 one-year term Fish and Wildlife Service 
ecological services employees. That's it, for the entire State. To 
cover millions of acres of Forest Service, Bureau of Land Management 
and other federal lands, and countless activities that occur across the 
State on private and State lands.
    Activities in Montana that could potentially or actually impact 
endangered, threatened or other sensitive species include: timber 
harvests and hazardous fuels reduction projects, irrigation 
development, coal mine development and expansion, new or expanded coal 
and gas fired power plants, new hyrdoelectric generating facilities, 
highway projects, airport facilities, sewage treatment plants and 
cellular tower placements. Many if not all of these activities could 
require some level of consultation with the Fish and Wildlife Service, 
to address or reduce impacts to fish and wildlife.
    I am very concerned when I hear that the Service may not be able to 
meet all of the demands placed upon it just by other federal agencies, 
particularly by the Forest Service. We're working hard in Montana to 
preserve natural resource jobs, particularly jobs in Montana's timber 
industry. It is imperative that the Service provide adequate staff to 
assist the Forest Service in its efforts to manage timber resources, 
reduce hazardous fuels in our National Forests, and protect and enhance 
habitat for endangered and threatened species.
    Mr. Chairman, Montana is a growing State, and we're trying hard to 
continue to grow our economy, to provide more and better paying jobs 
for the citizens of our State. That means more projects, more 
improvements, more activity, and more potential for conflicts with fish 
and wildlife recovery goals.
    As Montanans, we prize our first-class landscapes, our pristine 
rivers and streams. We're proud of our outdoor heritage and our 
abundant fish and wildlife. We don't believe that economic growth and 
protecting fish and wildlife and their habitat are mutually exclusive 
goals. Our farmers and ranchers are good stewards of their lands.
    But, a lack of resources has made it awfully hard for the Fish and 
Wildlife Service to respond in a proactive way to Montanans' needs or 
the needs of our fish and wildlife populations. There's only so much 
that 18 full-time, permanent employees can do, in a State the size of 
Montana, with as many endangered, threatened and other sensitive 
species that we have, including grizzly bears, wolves, lynx, bull 
trout, sage grouse, prairie dogs, Yellowstone cutthroat trout, fluvial 
arctic grayling, sturgeon, and the list goes on. We need more people; 
that's just common sense.
    More people means important federal, State and private sector 
projects more forward more quickly, more efficiently, and that 
potential problems are addressed up front. More people means the 
Service can work more pro-actively with the State and local land-owners 
on species conservation efforts, to avoid the need to list a particular 
species, or to help land-owners cope with the presence of an endangered 
or threatened species on their property. For instance, a few Service 
employees have done wonderful things working with ranchers and local 
citizens along the Blackfoot River in Montana to improve habitat for 
bull trout.
    The needed investment by the Department of Interior and the Service 
in these kinds of efforts is minimal when compared to the long-term 
benefits to species and to the citizens of this country, in terms of 
enhanced wildlife habitat, healthier forests, reduced conflicts, 
continued economic growth, and fewer lawsuits.
    My sense that the State of Montana has been treated unfairly here 
only grows when I look at the uneven distribution of Service staff and 
resources in other States and regions, including three new offices and 
over 90 ecological services employees in Oregon, and well over 100 
ecological services employees in the State of Washington. This 
difference in staffing levels is just striking. I would like to explore 
this issue further with Director Williams.
    Mr. Chairman, I have worked hard in the past to propose common 
sense reforms to the ESA, in order to help the Fish and Wildlife 
Service and other agencies implement the Act more effectively, and with 
greater sensitivity to the needs of private landowners and States. I 
was proud of these efforts and the efforts of many of my colleagues on 
this committee. But, no matter what may or may not happen with ESA 
reform this Congress or in any other Congress, we have to adequately 
fund the Fish and Wildlife Service, and we have to put adequate staff 
where it's needed the most.
    I am pleased that the Administration has proposed overall increases 
in the Fish and Wildlife Service's budget for fiscal year 2004 over 
previous budget requests. However, I believe we can do much more, and I 
will explore this more specifically with Director Williams in the 
questions I submit for the record.
    Thank you again Mr. Chairman, for holding this hearing; and thank 
you, Director Williams, for taking the time to testify today.
      
    Senator Crapo. With that, Mr. Williams, please proceed with 
your testimony.

 STATEMENT OF HON. STEVEN A. WILLIAMS, DIRECTOR, U.S. FISH AND 
WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED 
BY HON. MARSHALL JONES, DEPUTY DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Williams. Thank you. Mr. Chairman, Senator Jeffords, I 
do appreciate the opportunity to testify before you today and 
report on the administration's fiscal year 2004 budget request 
for the Fish and Wildlife Service.
    Before I discuss our budget request, I would like to 
mention our recent decision to down-list gray wolves throughout 
much of its range. Wolves are coming back, and their new status 
highlights our progress toward recovering them across their 
range. Our final rule will give us greater management 
flexibility for most gray wolf populations, as we work toward 
removing gray wolf populations from the list of endangered and 
threatened species.
    I would now like to highlight a few items in our fiscal 
year 2004 budget request, starting with the Endangered Species 
Program. The 2004 request is $3 million above the 2003 request 
level. An increase of $3.2 million is required to address the 
growing listing program litigation-driven workload. This 
additional funding is necessary to address listing actions 
required by court orders or settlement agreements.
    Additional high-priority recovery actions, including 
immediate actions needed to stabilize critically-imperiled 
species and actions that could lead to delisting newly 
recovered species, will be implemented nationwide with an 
additional $2 million over the 2003 request.
    We are requesting $103.6 million to implement the fisheries 
program's vision for the future through increased funding for 
hatchery operations and hatchery maintenance and increased 
emphasis on aquatic invasive species. This request will help to 
do more for aquatic resources and the people who value and 
depend on them through enhanced partnerships, scientific 
integrity, and a balanced approach to conservation.
    Significant funding increases will support high-priority 
needs of the National Wildlife Refuge System. Last year the 
President's budget requested the largest increase in the 
system's history to celebrate the Refuge System's centennial 
earlier this month. This year the administration request builds 
on that substantial increase with another $25.5 million.
    To date, our Partners for Fish and Wildlife Program has 
worked with 28,700 private landowners through voluntary 
partnerships to implement on-the-ground habitat restoration 
projects covering approximately 360,000 acres across the 
country. We are requesting an additional $9.1 million in the 
2004 request to increase the program's capabilities to enter 
into meaningful partnerships resulting in on-the-ground habitat 
restoration accomplishments.
    A $3 million increase for the Joint Venture Program will 
provide a total of $10.4 million or full funding for that 
program. As of December 2002, partners have contributed 
approximately $1.5 billion to protect, restore, or enhance 
almost 5 million acres of U.S. wetlands, grasslands, forests, 
and repairing habitat.
    Our law enforcement program would hire nine additional 
Wildlife Inspectors to interdict and deter the illegal trade in 
protected species. In addition, manatee protection efforts will 
be accelerated in Florida by protecting manatees from boat 
strikes and enforcing speed zones in refuges and sanctuary 
areas with a $0.5 million increase.
    The President's 2004 budget continues to support active 
participation on the part of the States and other partners in 
resource conservation efforts. To this end, the budget provides 
$247 million for five Service grant programs that facilitate 
State and local conservation efforts.
    The budget includes $50 million to continue the Landowner 
Incentive and Private Stewardship Programs. We are requesting 
$86.6 million for the Cooperative Endangered Species 
Conservation Fund. Our budget includes $60 million, including 
$5 million for a tribal set-aside, for State and tribal 
wildlife grants.
    In addition, we requested $50 million for the North 
American Wetlands Conservation Fund. This fund protects and 
restores wetland ecosystems that serve as habitat and resting 
areas for migratory game and non-game birds and supports non-
regulatory private/public investments.
    I thank you very much for the opportunity to testify. We 
appreciate the committee's interest and support, and I look 
forward to working with you in the future.
    Senator Crapo. Thank you very much, Mr. Williams.
    Senator Thomas, did you want to make an opening statement 
before we begin the questioning?

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Very briefly, Mr. Chairman, thank you. I 
wanted to focus, and I will ask a question in a little bit, on 
the Endangered Species thing. In Wyoming, of course, we have a 
good deal of that, and I have been a little surprised lately to 
get information that during the 30 years we've had about 1,800 
species enrolled on the Endangered Listed with about 15 
recovered.
    Now I see in the budget, apparently, you have increased the 
amount of money for listing and reduced the amount for 
recovery. It just seems to me like that's the wrong emphasis, 
and it certainly has shown up to be the wrong emphasis in 
Wyoming with regard to grizzly bears, with regard to wolves, 
and a number of others.
    So I just will share that and would have some questions 
about it, Mr. Chairman.
    Senator Crapo. All right, thank you.
    Mr. Williams, I will ask a question first, and my question, 
as you might guess, is in the area of the Endangered Species 
Act. You, obviously, are getting from a number of us concerns 
about the budget allocations in terms of that.
    One of the greatest stated needs of the Service, and, in 
fact, that's true with regard to the previous administration's 
Fish and Wildlife Service as well, is the need to address the 
train wreck that the ESA's listing and critical habitat 
designation system faces. In your opinion, why is the system 
broken down and what can be done to address the failure?
    Mr. Williams. Early on in the history of the Endangered 
Species Act, a lot of attention was paid to dealing with 
petitions to list and listing decisions. At that time, for a 
number of reasons, the review of petitions to list and listing 
decisions were done without, for the most part, designating 
critical habitat, which the law requires. As a result, we 
received numerous lawsuits and continue to be involved in 
numerous lawsuits challenging this and demanding the 
designation of critical habitat.
    The actual designation process itself is time-consuming. It 
consumes quite an amount of staff time in trying to put 
together biologically significant and legally defensible 
critical habitat designations. So we have a bit of a backlog 
that's caught up with us.
    In terms of designating critical habitat, it is 
particularly difficult for certain species, where there's not a 
lot of information known about that species, at the time of the 
listing. As we're learning more about particular species, like 
its life history, and so on, designating critical habitat at 
the time of its listing is very difficult.
    In a nutshell, we have really had a couple of things going 
on. One is increased lawsuits requiring us to designate 
critical habitat, inadequate resources to deal with listing 
petitions, and the developing critical habitat designations, 
and some of the timeframes in the Endangered Species Act. Given 
the workload that we're currently under, it is difficult for us 
to comply.
    We had hoped to, and had put into plan, a process, a system 
to prioritize our actions in terms of what species to list when 
and which are the higher priority, to try to match up our 
duties with the funds that we have. Unfortunately, court 
rulings have negated our ability to prioritize on a biological 
basis, and the avalanche of lawsuits and settlements that we 
have to contend with make it very difficult.
    I would just point out to you that we are in settlement 
agreements or in the process of settlement agreements where we 
have to commit actions of the Service out to 2005, 2006, and in 
the very near future we may be having to make commitments out 
to 2007 or 2008, because of the limited resources that we have.
    So that's kind of the difficult position we find ourselves 
in, trying to respond to courts, not having the ability to 
prioritize and focus our efforts where we think we should go, 
but we're driven largely by lawsuits.
    Senator Crapo. Well, thank you. I note from the material 
you have provided that, as of the middle of January this year, 
the Service's litigation workload is 32 active lawsuits with 
respect to 32 species, 35 court orders involving 340 species, 
and 26 notices of intent to sue involving 27 species.
    As you may be aware, most of the bipartisan congressional 
bills addressing critical habitat over the last decade or so 
have focused on moving the critical habitat designation phase 
of the Endangered Species Act to that period where we actually 
know more about the species and have the evaluation concluded 
and the recovery process, the planning stage for the recovery 
process.
    I suspect, given the answer you just gave, that I know what 
your answer to this next question will be, but I wanted to ask 
it. And that is, do you endorse moving the critical habitat 
designation to the recovery planning stage?
    Mr. Williams. Senator, I think that makes quite a bit of 
sense. As you have said, it is at that time when we are 
developing recovery plans that we have a better understanding 
of the species' habitat needs.
    As a biologist, changing the time or the period when we 
would have to do critical habitat designation makes sense from 
a biological perspective. I think it also makes sense in terms 
of the workload, just the practical workload that we're 
required to complete under the Act as it is written now.
    There are some, as you well know, that question the 
benefits of critical habitat designation, particularly at the 
time of listing. So that would be something about which we 
would certainly be happy to work with you and this committee.
    Senator Crapo. Thank you very much. My time for my first 
round of questions has expired. Senator Jeffords?
    Senator Jeffords. Thank you.
    Mr. Williams, as you probably know, the Department of 
Defense is seeking changes to the several environmental laws as 
part of the Readiness Initiative in the Department's 2004 
authorization bill. One of the proposals would eliminate the 
designation of critical habitat on all lands, quote, ``owned or 
controlled,'' unquote, by the military if an Integrated 
National Resources Management Plan, known as INRMP, has been 
developed under the Sikes Act.
    However, under the Endangered Species Act, DOD can request 
that the Fish and Wildlife Service exclude specific parcels 
from critical habitat designations altogether, if the 
designation would conflict with training needs under section 
4(b)(2) authority or work with the Service to develop a 
solution for both training and species protection under Section 
7(a)(2).
    It seems to me that the current law provides for making 
training and critical habitat designation compatible. The 
Service's recent report to Congress on the Sikes Act and INRMP 
states that, quote, ``The Fish and Wildlife Service has 
established effective partnerships with the military services 
to facilitate cooperative, collaborative natural resource 
management on installations while the military continues to 
successfully carry out its missions.''
    Do you know of any instances where the existing regulatory 
structure did not result in an agreement?
    Mr. Williams. I may need to provide an answer for the 
record on specifics, but if I could comment just in general on 
that. The Act does allow us, in the process of designating 
critical habitat, to exclude certain lands where the benefits 
of exclusion outweigh the benefits of inclusion. It also 
provides some leeway to recognize management efforts, in this 
case INRMPs and the Department of Defense installations, to the 
species and provide some flexibility. Although it has and may 
continue to be challenged by the courts, these provisions give 
us some opportunity to exclude those areas if in the long run 
the benefits to the species outweigh including them.
    I am not aware at this time of any areas, and specifically 
the latter part of your question, to identify any areas 
specifically, but we certainly will provide you an answer for 
the record, if that is okay.
    Senator Jeffords. The Sikes Act requires that INRMPs be 
prepared in cooperation with the Service and the State Fish and 
Wildlife Services. In addition, the Service must comment on 
implementation and effectiveness of INRMPs and be involved in 
the formal review process every five years.
    In fiscal year 2002, the Service spent 3.1 million hours, 
equal to 30 full-time employees, in INRMPs. What is the 
Service's budget request for 2004?
    Mr. Williams. Excuse me a second.
    [Mr. Williams confers with staff.]
    Senator if it is okay with you again, we would provide you 
a breakdown we have in our budget documents. It would appear in 
a variety of accounts. We would have to break that down 
specifically to dollars spent working with the Department of 
Defense.
    Senator Jeffords. I would appreciate it if you would do 
that.
    Mr. Williams. We are happy to do that.
    Senator Jeffords. What would the impact be on the Service's 
budget if the DOD proposal wasn't enacted?
    Mr. Williams. I'm sorry?
    Senator Jeffords. What would the impact on the Service's 
budget be if the DOD proposal wasn't enacted?
    Mr. Williams. Are you referring to what was in the defense 
authorization bill?
    Senator Jeffords. Yes.
    Mr. Williams. Okay. I don't know that it would have a major 
budgetary impact. We are working with, as required by the 
language in the bill, working with the Department of Defense to 
address their concerns. We have a one-year period to address 
their concerns about take under the Migratory Bird Treaty Act. 
I think that is what you are referring to, hopefully.
    We have a December 2003 deadline. We are meeting regularly 
with the Department of Defense, and I can't envision right now 
that that would have a major impact on our budget, but 
certainly we appreciate the opportunity to work with them in 
this one-year time period, again, that is referenced in the 
defense authorization language.
    Senator Jeffords. The INRMP proposal.
    Mr. Williams. Oh, in the INRMP proposal?
    Senator Jeffords. Yes, right.
    Mr. Williams. Again, with your indulgence, I think we need 
to do a little research on that, and we will provide you a 
response for the record.
    Senator Jeffords. In fiscal year 2002 the Service was 
involved in the development, review, and/or implementation of 
INRMPs for 225 military installations. If enacted, what impact 
will the DOD proposal have on the existing INRMPs, and how many 
species would be impacted?
    Mr. Williams. Again, we would be happy to provide you 
specifics on that. My personal experience, with working with 
INRMPs is from the State perspective, as part of that 
partnership with Defense and the Fish and Wildlife Service. 
From that experience, the time that we spent working with 
Defense I have always considered it as time well spent. A lot 
of our Department of Defense lands, as you well know, contain 
excellent habitat and also provide habitat for a number of 
threatened and endangered species, which sometimes causes 
Defense some problems in terms of training and readiness.
    But INRMPs, in and of themselves, I think provide an 
excellent vehicle for State/Federal cooperation to provide 
improved fish and wildlife conservation on those Federal lands. 
Personally, I enjoyed my efforts, enjoyed my time, working with 
the Department of Defense folks and thought it was time well 
spent, again for fish and wildlife conservation within the 
States that I have worked.
    Senator Jeffords. There are three criteria set out in The 
Federal Register that the Fish and Wildlife Service used to 
determine whether INRMPs can provide special management for 
lands such that the lands no longer meet the definition of 
critical habitat. Some have suggested that codifying these 
criteria could solve the problem the military says it is trying 
to address in the INRMP and critical habitat designation. What 
do you think of that suggestion?
    Mr. Williams. I would like to have some time to review 
that. I have not personally dealt with that, but we certainly 
will look into that and consider whether codifying is in the 
best interest of the whole process.
    Senator Jeffords. I am pleased to see that for the second 
year in a row the President is requesting an increase in the 
budget for the National Wildlife Refuge System. However, it 
appears that the funding will be for operation and maintenance, 
not for the establishment of new refuges. Are these proposals 
for new refuges? If so, are they being considered for 
authorization by the administration?
    Mr. Williams. The increase, the $25.5 million that is 
requested for an increase in the Refuge System is to deal 
specifically with the operation and maintenance and backlog 
maintenance on existing refuges. That increase would not be 
directed toward the acquisition, whether through fee-simple 
acquisition or through easements.
    It is, again, coupled with last year's increase, it is our 
attempt to take care of the facilities and lands that we 
currently own rather than spending that on acquiring additional 
lands.
    Senator Jeffords. Thank you. Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much. Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman. Thank you, Mr. 
Williams.
    We just happened to visit yesterday with the Defense 
Department, and they still believe there is a great deal of 
work to do. There were, I think, six proposals and only one or 
two of those have actually been put into effect. So there is 
considerable--and I think you were asked one question. You 
might think Camp Pendleton may have a place where you actually 
are having some problems both in the back country and on the 
coast for landing exercises. I guess it would be pretty hard to 
imagine that, if the military needs something for training, 
that that wouldn't be made available to them.
    Back to the endangered species, what is your emphasis? Is 
it just to keep listing more species or is the recovery equally 
as important?
    Mr. Williams. Senator, our emphasis would like to be on 
recovery actions. That is, as I understand it, the ultimate 
goal, of course, of the Endangered Species Act is to keep 
species from being listed as threatened and endangered and, in 
the absence of that, to recover those species that are listed.
    The --and I will use the term again--the avalanche of 
lawsuits and settlements, court orders, focused on listing and 
critical habitat designation has really consumed the majority 
of our time and a lot of our funding. We are not in the 
position to focus the efforts of those individuals and those 
dollars on recovery like we would like to.
    This budget does request an additional $2 million for 
recovery actions. The problem we find ourselves in is that we 
are not able to set the priorities, our priorities. Our 
priorities are set largely by the court systems and plaintiffs 
that have brought suit against us.
    Senator Thomas. I believe your budget is divided between 
listing and recovery, and your listing is up and recovery is 
down actually.
    Mr. Williams. I believe we have a $2 million increase on 
the recovery side.
    Senator Thomas. I don't agree with you.
    Mr. Williams. I'm sorry, Senator. I am comparing it to the 
2003 budget request. With the late enactment of the 2003 
budget, it is easy to get the figures messed up, and I 
apologize for that.
    The increase that we are requesting for listing is to just 
try to keep our head above water in terms of meeting the court 
settlements.
    Senator Thomas. No, and I understand what you're saying, 
but this has been going on for 30 years. Now there ought to be 
some sort of an effort, rather than to just say, ``We're 
getting sued.'' Are there changes that need to be made? Are 
there changes that need to be made in how it is done, so that 
you don't end up--we shouldn't be governing by lawsuits.
    Mr. Williams. Well, we share that sentiment. We would be 
happy to work, again, with this committee and with Congress to 
improve upon the act.
    There are a number of areas that, although I do not profess 
to be an expert in the act, but a number of areas that are 
obvious to me where it might be fruitful for discussion: 
listing, critical habitat designation, consultations, and so 
on.
    Senator Thomas. You know I have a bill in that would seek 
to deal a little bit with it. It would require there be more 
science and more information in the listing process. This 
nominating process is pretty perfunctory. I think we can show 
you one, the Preble's mouse in Wyoming, where there obviously 
wasn't enough information in the beginning.
    So this bill would require more science, more information, 
and along at the same time as listing, a plan for recovery. So 
that you don't get in the grizzly bear thing, where you have 
exceeded the numbers by hundreds, but yet you can't get the 
range determined. So do you think that might be helpful?
    Mr. Williams. Well, we recognize that oftentimes we don't 
have the science that we would like to have. Sometimes a 
particularly rare species--I mean, by the very definition, the 
rare species, not a lot is known about them. Sometimes the only 
science available to us, therefore, becomes the best science 
available to us.
    We do not have the research capability that I think we need 
to fulfill our duties under the Act. I know you are aware that 
a few years our research capabilities, our research section, 
were moved to the U.S. Geological Survey. So we don't have that 
research component within the Service that we had historically.
    That calls upon, and we've had numerous discussions in 
moving forward on better coordination between the Service and 
the U.S. Geological Survey. We do rely heavily, then, in the 
absence of our own research capability, on research and work 
done at universities, by private consultants, outside 
biologists, on peer-reviewed journal articles, on any 
information that we can get to help make those decisions on, 
again, whether it be listing or critical habit designation, or 
what it might be.
    But we certainly have a real need for improved science. I 
don't know that that would streamline or shorten the time it 
would take us to respond to petitions to list or consultations, 
under the Act, but certainly it would help us in making better 
decisions.
    Senator Thomas. You might also want to consider requiring 
that the nominees do a little better job and have a little 
stiffer requirements in order to submit information and not 
make nominating such an easy task.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you, Senator.
    Mr. Williams, my next question was going to be the one that 
Senator Thomas just asked, although I would just comment at 
this point. Obviously, there's a lot of interest on our part 
with regard to the designation process and how best science is 
used and when the science is available.
    I expect that, whether it is through Senator Thomas' 
efforts or my own or others, that we will be seeing some 
legislative focus on this in this Congress, and, hopefully, we 
will be able to provide you some legislative relief in terms of 
the ability to more effectively utilize the resources that you 
have in your budget for species recovery and the kinds of 
things that we all want to see happening.
    In that context, I encourage you and your team to focus on 
what would be the best solutions; that if you could have 
reform, what would those reforms be? And maybe I will turn that 
into a question, not for you to answer right now, but perhaps 
to just submit a written response on.
    If we could do something in the process to try to address 
the paralysis that the agency faces through the litigation that 
it is dealing with, what would be the best thing we could do at 
our level?
    Senator Crapo. Now let me go on to another question. On 
page 5 of your budget submission, the Service states that your 
operational plan will contain new long-term and annual 
performance goals and measures to guide the delivery of the 
Service program implementation, management reform, and budget 
formulation.
    We often hear well-grounded comments about that the 
regional-level biological opinion supporting Section 7 
consultations and determination of mitigation efforts for 
section 10 habitat conservation plans are moving forward at a 
snail's pace. Considering that, at least with regard to Section 
7 consultations, Congress has already set forth a performance 
goal, why can't the Service meet the statutory expectations of 
the Endangered Species Act? Are these expectations unrealistic?
    Mr. Williams. If I could just start out by, hopefully, 
putting that question and my answer in context, in 2002 we did 
approximately 77,000 consultations, 72,000 of which were 
informal consultations and 5,000 formal consultations. I think 
in most cases it is safe to say that we have been able to meet 
the performance expectations. In some cases I would agree that 
we have had difficulty.
    There are a number of problems that may lead to that. One 
is in certain regional offices, again, the workload that we're 
under. In some cases we have received, I will just say it, 
inadequate biological assessments upon which we consult and 
write biological opinions. In some cases we have received 
notice of an initiation of formal consultation, and then some 
time elapse, in some cases a lot of time elapse between then 
and when we receive the biological assessment, again, upon 
which we write our biological opinion.
    I would say that in a few notable cases, we have turned 
those biological opinions around very quickly, with a lot less 
time than we would like, because the action agency was late in 
providing us information upon which to do our biological 
opinions.
    So workload, the product we get to review, and when we get 
that product sometimes causes us problems. An example of how 
things can go smoothly, when we can bring the staff power to 
bear, is how we have dealt with the Fuels Treatment Program and 
our consultations with BLM, Forest Service, and others, where 
we were able to staff up, put people on those consultations, 
and move them along quickly because of, obviously, the 
importance of fuel treatment and fire suppression in the West.
    We do continue to look for ways to streamline the 
consultation process. One is very common-sense, relatively easy 
to do with the cooperative action agencies, and that is for our 
folks and the action agency to sit down at the onset of the 
development of the action agency's biological assessment and 
work through it, so that we are all on the same page when it 
comes time for us to develop a biological opinion. We are doing 
that to some degree. It is my goal to do that to a much larger 
degree with those agencies that we are consulting with.
    We have also undertaken a process of developing counterpart 
regulations. Two quick examples would be under the President's 
Healthy Forest Initiative and also with the Environmental 
Protection Agency and the Department of Agriculture dealing 
with pesticide registration.
    So those counterpart regulations should continue to ensure 
protection for threatened and endangered species, but also 
provide, again, a more streamlined process, a more timely 
process, for consultation.
    We would always like to have a little more time to complete 
our work, but I don't know that it is unreasonable if we could 
staff up the way that we would like to. But I think we have a 
pretty good track record, with some exceptions that I will 
agree to, of turning around our biological opinions and 
consulting with agencies, and doing so in a way that makes 
sense to the agency and makes sense for the species involved.
    I would just conclude by saying that out of 77,000 total 
consultations, 72,000 were informal; that gives us a good 
indication that we can work cooperatively with these agencies. 
We are working together, and we can deal with whatever 
conflicts there might be up front, negating the necessity of 
going to actual formal consultation. That is what I would like 
to see us doing.
    Senator Crapo. I appreciate that objective and would just 
encourage your continued focus on this. Section 7 consultations 
are one area where I think regulatory solutions or cooperation 
between the agencies can make a lot of progress, and I would 
encourage you to continue focusing on that.
    My next question deals, again, with critical habitat and 
economic analysis. The previous administration wrongfully tried 
to justify their position that there was no economic impact of 
critical habitat because the economic impacts all occurred at 
the initial listing. I say that they were wrong, these 
arguments were wrongful because the courts have rejected these 
arguments.
    The cost of economic analyses are, as you say on page 63 of 
your submission, equal to or greater than the costs associated 
with preparing the rest of the designation. Are there different 
ways to address the methodology for economic analysis that will 
be both informative and provide policymakers with adequate 
information?
    Mr. Williams. Yes, Senator, I would say that I don't share, 
nor does the Department of the Interior share, the previous 
view about the economic impact of critical habitat. There are a 
number of folks within the Service and the Department, that are 
working towards a more realistic, a more consistent approach to 
economic analysis for critical habitat designations.
    At times can appear to be somewhat of a moving target, as 
court decisions in different parts of the country come down, 
trying to assess if there is agreement on the decision handed 
down, and if there is, how we incorporate that into the 
economic analysis.
    It is an area that is certainly ripe for improvement, and 
the Department is working, as I said, working at improving our 
economic analysis, so that it truly reflects the impacts, the 
potential impacts, that designating critical habitat will have 
on society, on those folks that are within that area.
    Senator Crapo. Thank you very much.
    In your budget submission, on page 13, the Service is 
requesting a $3 million increase in the listing program as a 
result of litigation-driven workloads. What are the major 
contributing factors that have led the courts essentially 
directing the priorities of the Service as a result of 
litigation?
    Mr. Williams. One of the things, as I mentioned earlier, is 
a backlog of critical habitat designations. Early in the 
process, the Service, in the process of listing a species, on 
numerous occasions indicated that, that it was not prudent to 
designate critical habitat, for a variety of reasons, one of 
which may be that there's little benefit to the species.
    Those determinations were challenged by a variety of 
plaintiffs. The courts agreed with the plaintiffs. We find 
ourselves in a situation now where not only are we faced with 
new petitions to list, new decisions to list, and critical 
habitat designations that must go along or shortly thereafter 
the listing, but also the backlog of critical habitat 
designations that we didn't do before. That is one factor, I 
believe.
    Another factor is in the volume of lawsuits that are out 
there in the country, although primarily, the western part of 
the country, but the volume of lawsuits and court decisions 
that are handed down have an impact on, it almost seems like on 
a weekly basis--I am exaggerating a bit, but certainly on a 
monthly basis--critical habitat designations that are in 
process, and we have to go back and rethink, so that when that 
designation comes out, we don't get sued. That is another 
contributing factor.
    Our request for the additional $3.2 million for listing/
critical habitat designation, hopefully, will be adequate to 
meet, and provide the resources we need to meet, the court 
demands for 2004.
    I would conclude by saying--and I have mentioned this 
previously--we tried to implement a priority system a few years 
ago that would allow us to match our responsibilities, our 
duties under the Act with the dollars that are out there to 
benefit the species that we are concerned about. However, that 
was rejected by the court system. As you have said, we are 
largely driven now by court decisions.
    Senator Crapo. Thank you. On page 72 of your submission you 
state that the workload on Section 7 consultations has grown 
from 40,000 in 1999 to 72,000, as you just indicated a minute 
ago, in 2002. Can we assume that the number of Federal actions 
has not almost doubled in the last three years, or have the 
Federal action agencies used Section 7 consultation to avoid 
litigation and place the workload on the Fish and Wildlife 
Service?
    Mr. Williams. Well, I am happy that the other Federal 
agencies aren't here.
    [Laughter.]
    Senator Crapo. Can you answer that question?
    [Laughter.]
    Mr. Williams. No, I don't know if I could. I don't know if 
I would characterize it that way.
    In terms of what we have submitted in our budget relative 
to consultations, the $2 million decrease that you see in that 
budget is due to a reduction or an elimination of an earmark 
that was in the budget for some number of years dealing with 
southern California habitat conservation plans. We feel that 
the growth in the section 6 portion of our budget and other 
grants that flow through the agency provide those folks in 
southern California the opportunity to compete for those funds.
    As we tried to remain fiscally-conservative and constrained 
by the difficult budget situation we all find ourselves in, we 
have reprogrammed dollars in our budget to increase what we 
think we need to deal with our listing duties for 2004. So 
please don't take the $2 million decrease as an indication that 
we don't think it is important or that we think that we can cut 
back on our responsibilities. It's not that. It is that we 
removed an earmark where we think that time has run out on the 
necessity for that earmark for southern California.
    Senator Crapo. What do you think accounts for the almost 
doubling of the actions in three years of the consultations?
    Mr. Williams. I wouldn't be surprised, in all seriousness, 
that some of it isn't fear of litigation, where action 
agencies--and maybe rightfully so--want to make sure that every 
``i'' is dotted and ``t'' is crossed to avoid litigation that 
would slow the process. I don't know that I could back that up 
with factual information, but from talking with folks in other 
agencies, I kind of get that sense.
    Senator Crapo. Could you hold on for just one second?
    Mr. Williams. Yes, sir.
    [Senator Crapo confers with staff.]
    Senator Crapo. All right, thank you.
    Mr. Williams, because of our time-budgeting pressures and 
our budget pressures on the floor today, you may get off the 
hook earlier than some of us wanted to let you off the hook 
today, but I have a critical meeting with the Whip team at 
noon, which is in about eight minutes.
    There's a bunch of other questions I wanted to ask you, one 
set of which I am going to ask you, but there are a number of 
others that I won't have time to get to that I would like you 
to respond to in writing, and we will submit those to you.
    Mr. Williams. Yes, sir.
    Senator Crapo. --at the conclusion of the hearing.
    Senator Crapo. But the issue that I wanted to go into 
before I conclude is the question of the news that there's 
going to be a downlisting of the wolves under the Endangered 
Species Act. As I assume you are aware, in Idaho that affects 
part of Idaho but not the rest of Idaho.
    One of the questions that I have is, how will the 
downlisting of wolves affect the ability of Idaho to delist its 
population in the future?
    Mr. Williams. I think the downlisting, the final rule that 
I signed, will help Idaho to delist in the future. I say that 
for this reason: The final rule identifies three distinct 
population segments. Idaho, obviously, is in the Western DPS.
    The management plan that Idaho has put together, the 
management plans that Montana and Wyoming are working on, and 
we are working in concert with them, will set the foundation. 
I'm sorry, those management plans, coupled with the status of 
the wolves in that distinct population segment above recovery 
goals for the last three years, really sets the stage for the 
Service to move forward with a delisting.
    We have also announced with the final rule an advanced 
notice of a proposed rule to delist wolves and we will be 
working on that. In fact, we are working on that now.
    So it is a logical progression to move a species from 
endangered to threatened. As we have indicated with the gray 
wolves, the next step, when recovery goals are met and they are 
being met; and when management plans are put together
    and they are in the process of being put together is 
delisting. That is where we should head, and it is a decision 
based primarily on the biology of wolf populations. They are at 
a point now where we believe protections will be in place in 
the very near future that would allow us to delist, which, in 
my mind, is a success that we should all take some credit for, 
even though I know that has caused difficulties in Idaho and in 
other States.
    If we move to delisting, the States will, working with us, 
provide the management flexibility to assure the continued 
survival of those populations, but also allow land managers, 
private landowners, ranchers, farmers, the ability to deal with 
wolves that are causing depredation to livestock, for instance.
    So I am anxious and we are anxious to move this process 
along and to really be part of an effort to fulfill the real 
intent of the Endangered Species Act. That is to remove 
species, to recover species, to get them into positions where 
States can manage them on their own.
    Senator Crapo. I appreciate that, and as I understand it, 
the downlisting that is to occur will only impact a portion of 
the wolf population in Idaho in north Idaho, but our 
experimental wolf population, which is in the remainder of 
Idaho, will not be affected by the downlisting.
    The question I have is, when we get to the delisting stage, 
which of course we hope is soon, will that require a separate 
delisting for both wolf populations in Idaho or will that 
delisting stage cover all the wolf populations in Idaho?
    Mr. Williams. Delisting would cover the entire distinct 
population segment, including all of Idaho.
    Senator Crapo. As you know, the wolf recovery process has 
been very successful in Idaho and, frankly, very successful in 
many other areas as well. Do you support the State of Idaho 
managing its wolf population prior to delisting, since our 
State management plan is already in place and wolf recovery 
clearly is successful in Idaho?
    Mr. Williams. Part of the 10(j) non-essential experimental 
population, there's some flexibility there that allows folks to 
manage/control wolves that are causing depredation, again, to 
livestock.
    The northern part of Idaho under the downlisting rule will 
receive what we call the 4(d) rule, which closely mirrors the 
10(j) rule, the only difference being--and it is a small 
difference--but folks would be allowed to take control actions 
for pets, for instance. Both cover domestic livestock, sheep, 
and cattle.
    We support what Idaho wants to do in terms of managing 
wolves as long as it's consistent in this interim period, when 
we go from threatened to delisted. I am not aware of any 
problems with--in fact, we have been working with Idaho on 
their management plan.
    I am hesitating a bit because I have always thought about 
it in terms of, once the species is delisted, I am comfortable 
with Idaho's management program and their efforts to monitor 
wolves for the next five years. But as long as it is 
consistent, obviously, with the law, we will be supportive of 
what Idaho wants to do after delisting.
    Senator Crapo. Well, I appreciate that, and I realize that 
that question of who has management authority in the interim 
period is a critically-important question. I appreciate your 
support and acknowledgment of the Idaho plan, of the Idaho 
management plan and its success, and would like to work with 
you to see if we can overcome any administrative hurdles that 
there may be to Idaho assuming management now in the interim 
timeframe.
    One last question, and I apologize, I am going to have to 
ask you to answer it quickly, and then I will maybe have to 
follow up with you later after the hearing because I've got to 
wrap up the hearing and then get to this next meeting.
    But one of the big issues with the States, obviously, is 
the financial impact that management of the species has on them 
when they assume management. I realize this may be a 
legislative issue rather than an issue at your level, but I 
would like your opinion on whether it is proper that, when 
under a Federal law like the Endangered Species Act, the State 
is caused to incur costs to manage a species, that the Federal 
Government support in providing the funding for that 
management.
    Mr. Williams. Well, I will try to answer it quickly, but I 
can't answer it without saying, for 17 years at the State level 
I was very much aware of when the Federal Government was going 
to require us to do certain things. We would like to provide 
technical assistance. We would like to provide, obviously, the 
financial assistance, and we do in a way in terms of the State 
wildlife grants.
    Our request includes $60 million for State wildlife grants, 
which could be used for those States that are developing wolf 
management plans. There are opportunities, or there are some 
grant programs, through the Service that can assist those 
States, particularly in dealing with wolf management plans.
    Do I think unfunded mandates, whether they come from the 
Federal or the State level, are the best situation? No, I don't 
think any of us would agree with that.
    We will continue to do our best to work with all those 
States that are developing their management plans, at least in 
providing the technical assistance, if we can't provide direct 
financial assistance.
    Senator Crapo. Well, thank you very much, and I do want to 
thank you and the Service for your attention to the issue, both 
the downlisting and, ultimately, the delisting and working with 
the States. We appreciate the new attitude that we have been 
experiencing in the last little while and look forward to 
working with you.
    I did just want to get you on record as much as I could 
with regard to the interest of the States in having the support 
on these unfunded mandates.
    I need to say, before I close, that Senator Inhofe's 
statement will be entered into the record, as will the 
statements of any other Senators who were not able to be here.
    I would ask you if you would be willing to answer questions 
that Senators who weren't here are willing to submit to you.
    Mr. Williams. Yes, sir, we will.
    Senator Crapo. All right, I apologize again for having to 
abruptly close this hearing. I am already very late to a 
meeting that I am not supposed to be late to. So we will 
conclude the remainder of our questions, and so forth, in 
writing and in subsequent follow-up.
    Again, I thank you for your attention to these matters and 
for coming here today.
    This hearing is closed. Thank you.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

Statement of Hon. Steven A. Williams, Director, U.S. Fish anD Wildlife 
                  Service, Department of the Interior

    Mr. Chairman, and members of the committee, I appreciate this 
opportunity to testify before you today and report on the 
Administration's fiscal year 2004 budget request for the Fish and 
Wildlife Service.
    Our budget request for 2004 is almost $2.0 billion, consisting of 
$1.3 billion in current appropriations under the purview of this 
subcommittee as well as $674.0 million in permanent appropriations.
    The request continues key Administration priorities such as the 
Secretary's continued emphasis on conservation partnerships through a 
revised Cooperative Conservation Initiative that focuses on existing 
successful programs.
    The Service's Partners for Fish and Wildlife, North American 
Wetlands Joint Venture, Coastal and Refuge Challenge Cost-share 
programs are all included in this year's Cooperative Conservation 
Initiative. The budget provides $15.0 million in increased funding for 
these programs, including $9.0 million for Partners, $3.0 million for 
Joint Ventures and $3.0 million for Refuge Challenge Cost-share.
    Our main operating account--Resource Management--is funded at 
$941.5 million, a net increase of $38.0 million over the 2003 request. 
We note this account is funded at $30.0 million over the recently 
signed 2003 Omnibus spending bill.
    The request includes $7.0 million for fixed pay and other cost 
increases. The budget also includes a $3.4 million general decrease for 
travel and transportation costs as well as an $8.1 million reduction 
tied to information technology streamlining savings. Last, funding for 
several lower priority projects has been redirected to higher 
priorities.

President's Management Agenda
    We support the President's Management Agenda and continue to create 
a citizen-centered organization by evaluating and implementing 
strategies to integrate budget and performance management, conduct work 
force planning, competitively out-source with the private sector, 
expand e-government, and provide greater accountability to the American 
people.
    The Service has worked closely with the Department over the past 
year to develop a more business-like approach to strategic planning and 
the 2004 budget. Substantial new performance information is contained 
in our justifications along with the series of traditional information 
that has supported previous congressional decisionmaking on the budget 
request.
    Last, the National Fish Hatchery System and Partners for Fish and 
Wildlife Program were evaluated under the Administration's Program 
Assessment Rating Tool during the 2004 budget process. I will discuss 
more on the PART process later.

Fisheries Vision for the Future
    We request $103.6 million, a net increase of $8.8 million over the 
2003 request to implement the Fisheries Program's 'Vision for the 
Future' through increased funding for hatchery operations and hatchery 
maintenance and increased emphasis on aquatic invasive species. For 
comparative purposes, this level is $3.0 million below the recently 
signed 2003 Omnibus spending bill, largely attributed to unrequested 
projects included in the Omnibus bill.
    Our 'Vision for the Future,' with the backing of this Presidential 
budget request, will help to do more for aquatic resources and the 
people who value and depend on them through enhanced partnerships, 
scientific integrity, and a balanced approach to conservation. This 
'Vision' will help the Service better support the sport fishing 
community, which has historically been one of this agency's most 
valuable and valued partners. It also will help efforts to restore 
imperiled species.
    We seek a total of $58.0 million for the National Fish Hatchery 
System, a net increase of $8.0 million above the 2003 request level. 
The National Fish Hatchery System was one of over 200 programs 
evaluated using the Administration's Program Assessment Rating Tool 
during the fiscal year 2004 budget process. New goals were developed 
consistent with the President's Management Agenda, the Department's 
Draft Strategic Plan, and the Fisheries Vision. This year's increase is 
a direct reflection of the program's shift toward becoming more 
performance oriented.
    $5.0 million will support operations:
    <bullet>  $1.6 million will support an additional 29 priority 
recovery tasks prescribed in approved Recovery Plans in 2004, an 
increase of 11 percent.
    <bullet>  $2.5 million will implement 32 additional restoration/
recreation projects to conserve and restore aquatic resources, roughly 
72 percent of all restoration activities.
    <bullet>  $900,000 will be used to conduct 16 high priority 
projects addressing science and technology objectives supporting 
valuable recreational fisheries and recovery of imperiled species.
    $3.0 million will improve the hatchery system's aging 
infrastructure to good and fair operational conditions to meet fishery 
management and recovery plan requirements. Of this total, $2.5 million 
will be directed toward 16 additional high priority deferred 
maintenance projects. The remaining $500,000 will enable the Service to 
complete Condition Assessments on 75 percent of its field stations in 
2004, and to streamline maintenance reporting and accountability by 
implementing the Service Asset and Maintenance Management System 
(SAMMS).
    An additional $1.0 million will prevent the introduction of aquatic 
invasive species, detect and rapidly respond to aquatic invasive 
species, and control and manage aquatic invasive species such as Asian 
carp in the Mississippi drainage and Asian swamp Eel in the Everglades.
    We also note that while this year's budget focuses on much needed 
increases for the hatchery system, we continue to strongly support 
aquatic habitat needs through a variety of programs. For example, the 
budget continues base funding for fish passage projects, for aquatic 
habitat restoration, and for other projects, some of which will be 
discussed below.

Partners for Fish and Wildlife
    To date the Partners program has worked with 28,700 private 
landowners through voluntary partnerships to implement on-the-ground 
habitat restoration projects covering 360,000 acres across the country.
    The Partners Program was also one of over 200 programs evaluated 
using the Administration's Program Assessment Rating Tool during the 
fiscal year 2004 budget process. This year's increase is a direct 
reflection of the program's achievement of annual performance goals.
    We are requesting an additional $9.1 million in the 2004 request to 
increase the program's capabilities to enter into meaningful 
partnerships resulting in on-the-ground habitat restoration 
accomplishments.
    For example, the Service will work with the California University 
of Pennsylvania on a landscape-scale habitat restoration program in the 
Buffalo Creek Watershed, Washington County, Pennsylvania and Brooke 
County, West Virginia to install streambank fencing, cattle crossings, 
and constructing alternate watering sources for livestock. And, in 
Alaska, the Service will work with the Chickaloon Village to restore 
fish passage within the Moose Creek watershed to restore all five 
species of Pacific salmon to the watershed.
    During 2004, the Partners program will:
    <bullet>  enhance or restore a total of 66,365 acres of wetlands 
through voluntary agreements to help improve fish and wildlife 
habitats;
    <bullet>  enhance or restore a total of 287,507 acres of upland 
habitat through voluntary agreements to help improve fish and wildlife 
populations;
    <bullet>  enhance or restore a total of 830 miles of riparian and 
stream habitat through voluntary agreements to help improve fish and 
wildlife populations.

National Wildlife Refuge System
    Significant funding increases will support high priority needs of 
the National Wildlife Refuge System. Last year, the President's Budget 
requested the largest increase in the system's history to celebrate the 
Refuge System's Centennial in March 2003. This year the Administration 
request builds on that substantial increase with another $25.5 million. 
For comparative purposes, this is a $33.6 million increase over the 
recently signed 2003 Omnibus spending bill.
    Together with last year's request, this totals over $82.0 million 
for much needed operations and maintenance projects within the refuge 
program.
    A $5.0 million increase will provide startup costs for new and 
expanded refuges including Vieques, Midway Atoll, and Don Edwards. 
Invasive species encroaching upon the refuge system will be addressed 
with an additional $2.1 million to combat nutria, Tamarisk and Giant 
Salvinia, among others.
    We will fund additional Challenge Cost Share projects under the 
Cooperative Conservation Initiative with $3.0 million; support 
additional Comprehensive Conservation Plans with $2.0 million; and 
control Chronic Wasting Disease on the refuge system with $500,000.
    Other priorities include $1.6 million for refuge law enforcement, 
$2.0 million for Land Management Research Demonstration Units, $1.0 
million for environmental education, and $7.0 million for refuge 
specific priorities.
    On the maintenance front, additional maintenance funding will 
upgrade the SAMMS module with $2.0 million.

Endangered Species
    The endangered species program is funded at $129.0 million, $3.0 
million above the 2003 request level. The program funding will support 
operations that enhance implementation of the Endangered Species Act, 
one of the nation's most significant environmental laws.
    An increase of $3.2 million is required to address the growing 
listing program litigation-driven workload. This additional funding is 
necessary to address listing actions required by court orders or 
settlement agreements.
    Additional high priority recovery actions, including immediate 
actions needed to stabilize critically imperiled species and actions 
that could lead to delisting nearly recovered species will be 
implemented nationwide with an additional $2.0 million. Potential 
actions include, for example, propagation and habitat restoration for 
aquatic species in the Southern Appalachians and Lower Tennessee 
Cumberland ecosystems, a region containing the highest diversity of 
freshwater fishes and snails in the United States and the highest 
diversity of freshwater mussels and crayfishes in the world.

Other Operations Increases
    A $3.0 million increase for the Joint Venture program will provide 
a total of $10.4 million for the program, in line with target levels. 
As of December 2002, Plan partners have contributed approximately $1.5 
billion to protect, restore, or enhance almost 5 million acres of U.S. 
wetlands, grasslands, forests, and riparian habitat, more than one-
third of the 16 million acres of U.S. habitat objectives under the 
Plan.
    Our law enforcement program will hire nine additional wildlife 
inspectors with an additional $1.0 million to interdict and deter the 
illegal trade in protecting species thus sustaining biological 
communities. In addition, manatee protection efforts will be 
accelerated in Florida by protecting manatees from boat strikes and 
enforcing speed zones in refuges and sanctuary areas with a $500,000 
increase.

Easements and Land Acquisition
    The President's budget request reduces our traditional land 
acquisition program by $29.6 million to a $40.7 million level to fund 
high-priority conservation easements or acquisition of land from 
willing sellers. For comparative purposes, the account is funded at 
$32.2 million below the recently signed 2003 Omnibus spending bill. 
Highlights include $5.0 million for conservation easements on the 
Quinault Indian Reservation in Washington State and $5.0 million for 
the Baca Ranch in Colorado.

Construction
    The Construction account totals $35.4 million, roughly equal with 
last year's request. This request level will fund 19 dam safety, road 
and bridge safety, and other priority projects at national wildlife 
refuges, fish hatcheries, and law enforcement facilities. Highlights 
include replacement of the Great Lakes fish stocking vessel M/V Togue, 
replacement of the office building at Cabo Rojo NWR in Puerto Rico, and 
$1.0 million to begin an aircraft replacement program to support 
important migratory bird surveys important to setting hunting 
regulations.

Grant Programs
    We will continue conservation efforts through cooperation, 
consultation and communication with all stakeholders including States, 
the District of Columbia, Territories and Tribes. The President's 2004 
budget continues to support active participation on the part of the 
States and other partners in resource conservation efforts. To this 
end, the budget provides $247.0 million for five Service grant programs 
that facilitate State and local conservation efforts.
    Recognizing the opportunities for conservation of endangered and 
threatened species through partnerships with private landowners, the 
budget includes $50.0 million to continue the Landowner Incentive and 
Private Stewardship programs.
    We are requesting $86.6 million for the Cooperative Endangered 
Species Conservation Fund, $2.3 million below the 2003 request level, 
and $6.1 million above the 2003 Omnibus spending bill. The proposed 
funding level would provide $50.0 million to support Habitat 
Conservation Plan Land Acquisition; $17.8 million for Recovery Land 
Acquisition grants to help implement approved species recovery plans; 
$7.5 million for traditional grants to States; and $8.9 million for HCP 
planning assistance to States.
    The budget includes $60.0 million (including a $5 million tribal 
set-aside) for State and Tribal Wildlife Grants, roughly level with the 
fiscal year 2003 request level, and $4.6 million below the 2003 Omnibus 
spending bill.
    A $50.0 million request for the North American Wetlands 
Conservation Fund includes an increase of $6.0 million above the 2003 
request level, and $11.3 million above the 2003 Omnibus spending bill. 
This Fund protects and restores wetland ecosystems that serve as 
habitat and resting areas for migratory game and non-game birds, and 
supports non-regulatory private-public investments in the U.S., Canada, 
and Mexico.

International Conservation
    $7.0 million is available for the Multinational Species 
Conservation Fund, $2.0 million above the 2003 requested level.

Conclusion
    Thank you very much. We appreciate the committee's past support, 
and look forward to working with the committee in the future.
                                 ______
                                 
Responses of Steven Williams to Additional Questions from Senator Crapo

    Question 1. In your budget submission on page 13 the Service is 
requesting a $3 million increase in the listing program as a result of 
litigation-driven workload. What are the major contributing factors 
that have led to the Courts essentially directing the priorities of the 
Service as a result of litigation?
    Response. Essentially, for many years, the U.S. Fish and Wildlife 
Service (Service) has been unable to comply with all of the non-
discretionary deadlines imposed by Section 4 of the Endangered Species 
Act (ESA) for completing mandatory listing and critical habitat 
(listing program) actions within available appropriations. The majority 
of private litigants have therefore repeatedly sued the Service because 
it has failed to meet these non-discretionary deadlines. These lawsuits 
have subjected the Service to an ever-increasing series of court orders 
and court-approved settlement agreements, compliance with which now 
consumes nearly the entire listing program budget. This leaves the 
Service with little ability to prioritize its activities to direct 
listing resources to the listing program actions most urgently needed 
to conserve species.

    Question 2. The Service requests a decrease of just over $2 million 
for Section 7 consultations and HCPs. Your stated justification for 
this reduction is funding support available through other programs. How 
exactly do you intend on addressing the backlog in developing 
biological opinions for Section 7 consultations with a decrease in 
funding?
    Response. The decrease is a targeted elimination of the Natural 
Community Conservation Plan (NCCP) earmark. Activities conducted under 
this program are also excellent candidates for funding through grant 
programs such as the Cooperative Endangered Species Conservation Fund 
or the Private Stewardship Grant program. Eliminating this earmark will 
not alter the amount of funds available to provide consultation 
services to Federal agencies.

    Question 3a. On page 72 of your submission you state that the 
workload on Section 7 consultations has grown from 40,000 Federal 
actions in 1999 to 72,000 Federal actions in 2002. Can we assume that 
the number of Federal actions has not almost doubled in the last 3 
years? Or have Federal action agencies used Section 7 consultation to 
avoid litigation and placed the workload on the FWS?
    Response. The increased number of consultations does in part 
reflect the fact that many Federal agencies have recognized their legal 
duty to consult with the Service when their actions may affect listed 
species or critical habitat. But the increased number also reflects the 
effects of adding many species to the list in the late 1990's. The 
majority of Section 7 consultations completed by the Service are 
resolved informally with the action agency and applicant. The Service 
informally resolved consultations on the vast majority (98 percent in 
fiscal year (fiscal year 2001) of Federal actions by working with the 
action agency and the applicant to avoid adverse effects to listed 
species or habitats. The Service also encourages applicants to consult 
as early as possible in the project planning process, thereby 
identifying and resolving endangered species conflicts while the 
project design is still flexible.

    Question 3b. Have you investigated the possibility of charging back 
Section 7 consultation fees to the action agencies as a means of 
funding this process and reducing the backlog?
    Response. The Department's fiscal year 2001 Appropriations Act 
(P.L. 106-291) included explicit authority for the Service to be 
reimbursed for expenses incurred when conducting Section 7 
consultations on hazardous fuels reduction projects. The Service may 
explore whether this type of authority might expedite the process for 
other activities. At the informal consultation stage, reimbursable 
agreements are made with various agencies to provide technical 
assistance so that the process proceeds more expeditiously at the 
formal stage.

    Question 4. Of the 72,000 consultations for Federal actions noted 
in your submission only 53 actions were determined to be likely to 
jeopardize the species. What does this say to you about the 
``conservation by permit'' system at work in the country today, and 
wouldn't a system of applied conservation based on the best interests 
of the species rather than chances of Federal actions be preferred?
    Response. We believe that the low number of jeopardy consultations 
is due largely to the cooperative approach to conservation that arises 
when action agencies seek the expertise of Service biologists. 
Involvement of endangered species specialists through the consultation 
process typically leads to project designs that avoid jeopardy or 
adverse modification of critical habitat. Effective and adaptive 
consultation practices and the availability of well-trained staff have 
been, and will continue to be, the primary factors in maintaining this 
remarkable rate of success.

    Question 5. What has the Service done to assist small landowners 
take part in the Section 10 HCP system?
    Response. The Service has worked with local units of government to 
develop programmatic permits such as those used in Texas for the 
Houston toad. We have also set aside a portion of our Habitat 
Conservation Plan (HCP) Planning Assistance grant funds to target small 
landowners who want to develop an HCP. Additionally, under the 5-point 
policy, we provide authorization for streamlined approval for low-
effect HCPs--an effort targeted specifically at small landowners. The 
results to date indicate additional effort is needed in this area.

    Question 6. In light of the courts decision in the Mexican Spotted 
Owl case, what do you see as the possible implications on HCPs and the 
exclusion of HCP covered lands from critical habitat thereby fulfilling 
the promised role of HCP presumed by former Sec. Babbitt?
    Response. We expect to preserve the exclusion for lands covered by 
HCPs using the procedures of section 4(b)(2) of the Act.

    Question 7. I would like to applaud the Service and the Secretary 
for the Partners for Fish and Wildlife program. It is certainly a 
success and it fulfills, what I think all of us agree, is the best 
objective of conservation--a voluntary system of Federal, State and 
local partnerships for species.
    However, it occurs to me that the funds used in these voluntary 
efforts could also be used as credits for a mitigation bank. In this 
way we could leverage conservation funding and begin to use the Act as 
a carrot for positive change rather than a stick against reasonable 
development. What progress is the Service making in developing 
Endangered Species Conservation banking?
    Response. On May 8, 2003, the Service published its guidance for 
the establishment, use, and operation of conservation banks (68 Fed Reg 
24,753). Prior to the issuance of this guidance, the Service had 
successfully entered into agreements with landowners for the 
establishment of these banks, mainly in the southeastern and 
southwestern portions of the country. In response to the new guidance, 
increased interest on the part of landowners and increased effort on 
the part of the Service to establish conservation banks for endangered 
and threatened species has occurred. The Service is currently working 
on more than 40 conservation banks with private landowners and State 
and local governments. Several agreements are being developed with 
landowners in States that are new to conservation banking, including 
Oregon, Colorado, Utah, Arizona, and Kentucky.

    Question 8. In my home State of Idaho, and throughout the Pacific 
Northwest, controversy continues to rage over the endangered Pacific 
salmon. In the operation of the National Fish Hatchery System, does the 
Service use the same ESU regimen employed by NMFS? In other words, in 
light of the Alsea case, does the FWS count hatchery raised fish as 
endangered species for the purposes of determining the overall numbers 
of species? Does FWS allow the take of endangered fish species under 
its jurisdiction for commerce?
    Response. The Endangered Species Act permits the Service to make 
listing decisions for subspecies and distinct population segments 
(DPS). Although NMFS's ``evolutionary significant unit'' (ESU) is 
equivalent to a ``distinct population segment,'' the Service does not 
use the term, ``ESU.''
    In making its listing decision the Service has always considered 
the presence of hatchery fish. For example, in listing the Atlantic 
Salmon DPS, the Service accounted for the hatchery fish in making its 
listing decision.
    With regards to the taking of endangered fish species under its 
jurisdiction, the Service does not allow the take of wild fish species 
listed as endangered or their progeny for commercial purposes.

    Question 9. You have expressed concerns over the cost of critical 
habitat designations. Obviously, the need for such designations and 
possible ways to streamline the process are important questions for 
legislative and administrative reform. In the interest of making the 
existing process work more efficiently until such reforms can be 
implemented, do you believe that third parties can assist by providing 
better peer review and comments on the issues relevant to a 
designation, both from the biological and economic analyses 
perspectives. If this is the case, doesn't that argue for sharing the 
relevant information with the other interested parties?
    Response. Please see our response to Question 10 below.

    Question 10. Why does FWS often refuse to release such information, 
as is happening now with the pygmy owl in Arizona? Isn't there a way to 
develop a process that protects this data to the degree necessary to 
ensure that privacy and State concerns are satisfied but still make it 
available to affected parties?
    Response to Questions 9 and 10. Under the Endangered Species Act, 
the Service must ensure that listing and critical habitat decisions are 
based on the best available science. To this end, when making listing 
and critical habitat decisions, the Service consults with experts both 
inside and outside the Federal Government and considers data from 
Federal and State agencies, other stakeholders, and the general public 
during the rulemaking process. In addition, the Service's peer-review 
policy allows for input from three appropriate and independent experts 
regarding the adequacy of scientific data used to support listing and 
critical habitat decisions. The Service is currently drafting interim 
peer review guidance that will clarify the objectives and procedure for 
implementing the Service's 1994 peer review policy.
    In 2003, the General Accounting Office reviewed the Service's 
listing program and determined that the Service's policies and 
practices generally ensure that listing and critical habitat 
designation decisions are based on the best available science and that 
the Service consults with a wide range of experts and stakeholders.
    While the Service's process in making listing and critical habitat 
decisions allows for the sharing of data such that the public may 
adequately participate, there are certain circumstances in which the 
release of sensitive information could result in harm to listed species 
through collection, as well as threats from both unintentional and 
malicious harassment of animals. The Service must also be sensitive to 
the privacy concerns of landowners. For example, the Service does not 
release information that contains landowner names and addresses.

    Question 11. Two recent court decisions, involving the Canada lynx 
and the Santa Ana sucker, indicate that Section 7 consultations will 
not go forward until critical habitat designations have been made. Can 
you estimate what the cost these decisions will be to the government, 
action agencies, and regulated entities if all actions subject to 
Section 7 must come to a halt until such designation determinations are 
made? What does the Service intend to do about these decisions?
    Response. The Service is not able to predict the number of future 
actions that may be affected or estimate the costs to the government or 
regulated entities under Section 7. However, we note that with regard 
to the lynx decision, the injunction is currently on appeal, and we 
expect that it will be lifted soon. The Service recently issued a final 
rule designating critical habitat in response to the Court's decision 
in the San Ana sucker matter. We expect this injunction will also be 
lifted soon.

    Question 12. It would seem to be an efficient use of resources to 
delist species that have met their recovery goals so that funds that 
are spent on them can be used to address other species on the list. 
What efforts are being made by the Service to delist species that have 
met recovery goals? Where does delisting in the Service's priorities? 
How much is the Service's budget request for delisting activities.
    Response. Because recovery and delisting are the ultimate goals of 
the ESA, they are a high priority for the Service. We have specific 
funds set aside for general program activities which include delisting 
funds. For fiscal year 2004, the Service requested a $2 million 
increase in funds that would stabilize species on the brink of 
extinction and implement final recovery actions for species on the 
brink of recovery that would ultimately lead to their downlisting or 
delisting in the next few years.

    Question 13. What 12 species do you expect to list in this calendar 
year?
    Response. The Service issued final listing rules in fiscal year 
2003 for the following species: Scotts Valley polygonum, Canada lynx, 
Sonoma County DPS California Tiger Salamander, Columbia Basin DPS of 
the Pygmy Rabbit, Loamatium cookii, and the Limnanthese floccose ssp. 
Grandiflora.

    Question 14. You state that you expect to work with EPA on NPDES 
water quality criteria programs. In light of the court decision in 
[Micco suki Tribe] what assurances can you offer the western States 
that temperature variations in trans-basin water transfers will not 
unduly burden the western water use system?
    Response. As you know, the Miccosukee case, Miccosukee Tribe v. So. 
Florida Water Mgnt. Dist., 280 F.3d 1364 (11th Cir. 2002), is now 
before the United States Supreme Court, and the United States has filed 
a brief supporting reversal of the decision. With this in mind, while 
the Environmental Protection Agency is responsible for administering 
the NPDES water quality criteria programs, the Service will coordinate 
closely with EPA to ensure that its involvement in the process is 
carried out efficiently and that such transfers are consistent with 
applicable statutes.

    Question 15. As I read your budget submission, it appears that the 
number of new HCP applications seems to be declining from previous 
years. In fact in 2003 you expect only 10.5 thousand acres of HCP 
coverage for 10 new HCPs. Is this an acceptable pace for HCP 
processing? Is this a possible reason for HCP application decline?
    Response. The Service believes that the apparent decline is not the 
result of inefficiencies in processing, but is likely the result of a 
trend toward regional HCPs which may result in a decline in the total 
number of applications received; however, we expect these regional HCPs 
will increase the number of activities and acres covered.

    Question 16. One indication of whether a law is working or not is 
the number of lawsuits that are brought under it. The Service has said 
that it will only be able to work on listing and critical habitat 
issues that are required by court order. That indicates that there are 
serious problems with the listing process and the critical habitat 
process. What is the Service doing to correct these problems with the 
listing process and the critical habitat issue?
    Response. As previously noted in April 2003 testimony before this 
subcommittee, the Department of the Interior welcomes the opportunity 
to work with Congress in developing a legislative solution to the 
crisis surrounding the Section 4 listing program. Currently, the 
Department is developing critical habitat policy in order to provide 
the greatest conservation benefit to threatened and endangered species 
in the most cost-effective manner.

    Question 17. Last year at this time the credibility of the Service 
was shaken by incidents of employees planting false data on Canada lynx 
and a preliminary report from the National Academy of Sciences that the 
actions taken in shutting off water in the Klamath Basin the year 
before were not supported by the scientific evidence. What has the 
Service done in the past year to better assure that decisions are 
supported by sound science? What actions were ever taken against the 
employees who planted the false evidence in the Canada lynx incident?
    Response. The Service has undertaken a number of actions to ensure 
that decisions are supported by sound science. Some of these actions 
include the development of personnel standards which specify 
disciplinary consequences for inappropriate or unacceptable behavior 
related to science, the establishment of interim draft guidance for the 
implementation of the Service's peer review policy, and the creation of 
a new position of Science Advisor to the Director of the Service.
    As previously noted in our May 2002 testimony before the House 
Resources Committee, the two Service biologist involved in the 
submission of unauthorized genetic samples during population surveys of 
the Canada lynx were subjected to appropriate administrative action.

    Question 18. It would seem to be an efficient use of resources to 
de-list species that have met recovery goals so that funds that are 
spent on them can be used to address other species on the list. What 
efforts are being made by the Service to de-list species that have met 
recovery goals? Where does de-listing stand in the Service's 
priorities? How much funding are you seeking for de-listing activities?
    Response. Please see the answer to Question 12 above.

    Question 19. The Department and the Service have indicated that 
they are seeking more partnerships and greater cooperative efforts with 
landowners in the administration of the ESA. Yet the 2004 budget 
request for the Landowner Incentive Program, which provides funding for 
technical assistance to private landowners for enhancement of species 
and habitat on their property, is $10 million less than for fiscal year 
2003. If the goal is greater cooperation, shouldn't this program 
funding be increased instead of being cut? Why is this program being 
cut?
    Response. As you know, the Department is committed to what 
Secretary Norton has termed the ``4 Cs'' in order to achieve 
conservation goals through communication, consultation, and cooperation 
with local stakeholders. Over the course of the past several years, the 
Department has greatly expanded the number of programs that advance 
this conservation ethic. Thus, while our competing priorities have 
resulted in one of these programs, the Landowner Incentive Program, 
being funded at $10 million less than fiscal year 2003, it is also the 
case that this is the same funding level as the fiscal year 2002 
enacted level for this program, which allows us to maintain this 
valuable program.

    Question 20. Does the FWS have any plans for rulemaking or policy 
guidance that would allow the listing and delisting process to move 
forward in an expedient fashion?
    Response. Currently, the Department is developing a critical 
habitat policy in order to address critical habitat designation, which 
should help expedite the listing process.

    Question 21. Does the FWS have any plans to allow for greater 
collaboration and coordination with other agencies on the listing and 
delisting of species? If so, what are those plans?
    Response. In order to facilitate greater collaboration, the Service 
published the Policy for Evaluation of Conservation Efforts (PECE) 
policy. This policy provides guidance to Service personnel for use in 
determining whether conservation efforts identified in conservation 
agreements, conservation plans, management plans, and similar documents 
will contribute to making listing a species unnecessary or contributes 
to forming a basis for listing a species as threatened rather than 
endangered. It also provides information to groups interested in 
developing agreements or plans that would contribute to making it 
unnecessary to list a species under the ESA. It is designed to ensure 
consistent and adequate evaluation by the Service of future or recently 
implemented conservation efforts identified in such documents when 
making listing decisions. We expect that this policy will facilitate 
the development by States and other entities of conservation efforts 
that improve a species' status so as to make listing unnecessary.

    Question 22. The Charles M. Russell Wildlife Refuge in Montana 
allows for only a 30-ft. easement for public access and this has led to 
inadequate road access in some cases, and in others, to close access. 
Because of soil conditions, road construction requires double the 
easement allowed for on the Refuge. The FWS should be willing to work 
with the counties and the public in insuring adequate all-weather 
access through the refuges? Do you have any plans to address this 
situation?
    Response. Within the Charles M. Russell Wildlife Refuge in Montana, 
there are only a small number of county roads that cross the refuge. 
These roads have 66-foot wide easements. The vast majority of roads in 
the refuge that provide public access are administered by the Service, 
and therefore are not associated with easements. We are not aware of 
any problems associated with public access resulting from inadequate 
roads easements.

    Question 23. The Thunder Basin Grasslands Prairie Ecosystem 
Association is composed of a group of private, State and Federal 
landowners in Northeast Wyoming that is interested in developing an 
innovative multi-species approach to conservation of habitat and 
species for future listings. Current provisions for HCP's and CCA's do 
not provide for a multi-species approach. Is the Service interested in 
working to develop provisions in law, rules and regulations for a 
multi-species approach to conservation?
    Response. The Service does provide multispecies approaches through 
HCPs and Cooperative Conservation Agreements (CCA). The law, as well as 
the Service's regulations, provide for these activities. The Service is 
engaged in a large scale effort to work with all of our partners on the 
development of HCPs and CCAs.

    Question 24. What is the FWS's policy on delisting endangered 
species when target recovery numbers are reached? Please answer this 
question as it applies broadly to listed species and specifically as it 
applies to the grizzly bear.
    Response. Recovery plans, developed by the Service and stakeholders 
for listed species, identify delisting goals. When a species reaches 
those delisting goals, the Service considers removing it from the 
Federal Lists of Endangered and Threatened Wildlife and Plants. To 
delist a species, the Service follows a process similar to when we 
consider a species for listing under the ESA: we assess the population 
and its recovery achievements; we assess the existing threats; and, we 
seek advice from species experts inside and outside of the Service.
    If the Service determines that the threats have been sufficiently 
reduced, then we may consider delisting the species. When delisting 
species, the Service first proposes the action in the Federal Register. 
At this time, the Service also seeks the opinion of independent species 
experts, other Federal agencies, State biologists, and the public. 
After analyzing the comments we received on the proposed rulemaking, we 
decide whether to complete the proposed action or maintain the species 
status as is. Our final decision is announced in the Federal Register.
    As a result of the collaborative efforts among the Service, the 
States and other Federal agencies the Service believes that the 
Yellowstone Grizzly bear population has achieved its recovery goals and 
the Service plans to initiate the delisting process in fiscal year 
2004.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Graham

    Question 1. In your testimony you mention that there is a $0.5 
million increase for manatee protection. Documents provided by USFWS 
indicate a budget request that is almost a $0.5 million reduction from 
the almost $1 million appropriated for fiscal year 2003. Can you please 
explain this discrepancy for the record?
    Response. In fiscal year 2004, the Administration requested $1 
million for manatee protection efforts. In previous budgets, the 
request was shown solely under in the Endangered Species Recovery 
program, however about half of the funds were being used for the 
enforcement of speed zones in manatee protection zones, a law 
enforcement activity. Therefore, in fiscal year 2004, the Service's 
request identified $500,000 for law enforcement activities with the 
remaining $500,000 going to the Service's Endangered Species Recovery 
program.

    Question 2. In your testimony, you mention the burden that lawsuits 
have placed on the Service. Manatee protection has been the subject of 
many lawsuits and in settling the suits, USFWS has agreed to establish 
14 new manatee protection zones. Manatee protection is a complicated 
issue in Florida but all parties involved agree that enforcement of 
manatee protection rules is crucial to protecting these creatures. Does 
USFWS have enough resources to enforce currently established manatee 
protection areas? Will the Service have enough resources to enforce 
newly established areas as mandated by the settlement? What level of 
funding do you believe will fully fund the enforcement of all federally 
mandated manatee protection zones? Is this level of funding consistent 
with your funding request for fiscal year 2004? If not, why not?
    Response. In 2004, the Service received $500,000 to support our 
initial increase in law enforcement activities to uphold boating speed 
limits in manatee protection areas and safeguard the animals from boat 
strike deaths. This funding, coupled with a new partnership with the 
Florida Fish and Wildlife Conservation Commission, will allow us to 
conduct 13 task force operations in fiscal year 2004, providing 
targeted enforcement efforts in the highest priority manatee protection 
zones. In addition, our law enforcement program will redirect resources 
from other investigative efforts to staff and fund the task force 
operations needed to protect manatees.

    Question 3. USFWS was recently sued for not complying with the 
manatee settlement because the Service did not implement several 
manatee speed zones. One reason that USFWS gave for not implementing 
the speed zones was that the Service wanted to wait for the State of 
Florida to act in order to avoid duplicating State efforts. Given the 
supremacy of Federal endangered species laws over State laws and the 
differences in settlement agreements that Florida and USFWS entered 
into, could you explain why USFWS wanted to wait for the State of 
Florida to act on manatee zones before it did? Could you also 
characterize your view of the relationship between the Federal and 
State level of manatee protection and enforcement?
    Response. The State of Florida and the Service are working together 
on the issue of manatee protection. While working to coordinate our 
efforts, the State and the Service are trying to avoid duplicating 
efforts in order to maximize our resources. As with other species, 
local law enforcement is critical to our efforts.
    As a result of a court decision, the Service was required to 
designate the manatee protection areas. After analyzing 145 sites in 
Florida, the Service determined that there were 13 sites which required 
immediate protection. As such, the Service moved forward with the 
designation of these protection areas. The Service and the State 
continue to work together closely on all aspects of manatee recovery as 
collaboration is key to the recovery of the species.
    At times, however, the State is unable to provide adequate 
protection for manatees. For example, the State's designated speed 
zones in the Pine Island and Estero Bay areas in Lee County, FL, were 
invalidated in a local court proceeding in December 2003. After 
evaluating the area and the likelihood of harm to manatees without the 
State speed zones, we are proceeding with an emergency designation of a 
manatee refuge covering the exact same area. Our emergency regulation 
would establish the same protections that had been provided by the 
State regulations, before they were vacated. We are also proceeding, as 
our regulations require, to develop a proposed rule to make this new 
refuge permanent. However, should the State be able to reinstate its 
speed zones in all or part of this area at any time in the future, we 
will consider withdrawing our refuge designation here.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Baucus

    Question 1. Please tell me why the U.S. Fish and Wildlife Service 
(USFWS) is proceeding with a nation-wide strategy for down-listing, and 
eventually de-listing, the gray wolf, rather than focusing first on 
States with healthy wolf populations, like Montana? These States should 
have priority in the process.
    Response. The gray wolf population in Montana, Idaho, and Wyoming 
has met recovery goals and the Service is committed to pursuing a 
proposal to delist the species. On April 1, 2003, the Service 
downlisted the Western Distinct Population segment to threatened. 
Decisions to delist the gray wolf will be made on a population basis, 
rather than nationwide.
    Based on our review of State management plans, peer review 
comments, and the States' responses to those comments, the Service is 
confident that both Montana and Idaho wolf management plans are 
adequate to maintain their share of the tri-State wolf population above 
recovery levels. In fact, Secretary Norton recently announced that both 
Idaho and Montana's plans contain an appropriate balance between 
necessary protections for wolves and management tools to allow 
protection of people, property, pets, and livestock such that the 
Department will propose to give those two States more authority to 
manage their wolf populations.

    Question 2. Please tell me how USFWS can give Montana management 
authority over wolves prior to a national de-listing?
    Response. As noted above, Montana has created a State management 
plan that will adequately maintain their share of the tri-State wolf 
population above recovery levels. However, delisting cannot be proposed 
until all three States containing wolves from the Western District 
Population Segment have produced State management plans that will 
successfully provide for protection of these species. While Montana and 
Idaho have adequate post-delisting plans, the Service has concerns 
about Wyoming's plan and cannot go forward with a delisting for this 
population segment of gray wolf until those concerns are addressed.

    Question 3. Please explain to me the differences in staffing 
between Region 6 and Region 1, the Pacific Region? How many ecological 
services staff does the Pacific Region have? How many ecological 
services staff does Region 6 have?
    Response. In the Service's Ecological Service's Region 1 office 
there are approximately 546 staff members. In Region 6, there are 
approximately 232 staff members.

    Question 4. How can the USFWS explain the striking difference in 
staffing levels in these two Regions?
    Response. A key reason for the difference in staffing levels in 
these two Regions is the difference in the number of species for which 
each Region is the lead and the associated workload. The Service 
allocates resources to the regions based on consideration of the number 
of species present in the region and identified priorities and 
workloads; the staffing levels reflect this. Region 1 is the lead for 
work involving 814 species, including 647 species already listed under 
the ESA and 167 that are proposed or candidates for listing. Region 6 
is the lead for work involving 73 species, including 55 listed species 
and 18 others that are proposed or candidates for listing.

    Question 5. Does the USFWS believe that the ecological services 
staff in Montana are able to meet all of their responsibilities and act 
in a proactive fashion to help the State and landowners conserve 
species and prevent listings?
    Response. The Service does believe that the ecological services 
staff in Montana are able to meet all of their responsibilities and 
proactively assist the State and landowners in the conservation of 
species and prevention of listing.

    Question 6. What will the USFWS do to increase staffing levels in 
Montana and Region 6?
    Response. The Service will continually review funding for the 
Region based on the criteria listed in our response to Question 4 
above. Additionally, through the Service's workforce planning 
activities, if skills or competency gaps are identified at locations in 
Montana and Region 6, the Service will consider all available tools to 
fill these gaps. Funds will be allocated based on reviews and other 
competing priorities in the President's Budget.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Inhofe

    Question 1. The Fish and Wildlife Service has proposed expanding 
the Ozark Plateau National Wildlife Refuge in northeast Oklahoma by 
nearly 12,000 acres. This proposal has been met with opposition from 
many local citizens. What is the current status of this proposal? In 
order for the proposed expansion to proceed, whose approval will it 
require?
    Response. In regard to the current status of the proposal to expand 
the Ozark Plateau National Wildlife Refuge, the Service released an 
Environmental Assessment, Land Protection Plan, and Conceptual 
Management Plan for public review in November 2002. The Region extended 
the review period twice and public review ended on April 11, 2003. The 
Service is currently considering the input received during the public 
review period.

    Question 2. If approved, some of the funding for the expansion of 
Ozark Plateau will come from the bankruptcy settlement of a former 
mining company at the now Tar Creek Superfund site. Is this correct? If 
so, please explain why these funds are being used to purchase refuge 
land. Additionally, please explain in detail the sources of funding for 
the $3.2 million proposed expansion. Do any of the funds require 
congressional action?
    Response. In the 1990's, when two mining companies responsible for 
significant portions of releases of hazardous wastes at the Tar Creek 
superfund site went bankrupt, the Department of Interior collected a 
portion of their allocation of damages for injuries to Federal trust 
resources through a Natural Resources Damage Assessment and Restoration 
Program (NRDAR) claim. The settlement documents for these bankruptcies 
specifically listed migratory birds and federally listed endangered and 
threatened species (gray bat, Ozark cavefish, and bald eagle) as the 
injured trust resources targeted in the claim.
    To expend the bankruptcy funds, the Department, working through the 
Service, prepared and publicly circulated a Partial Restoration Plan 
and Environmental Assessment that addressed alternatives for using 
settlement funds collected in the NRDAR claim. Subsequent to public 
review of the Restoration Plan and Environmental Assessment in 2000, 
the Department issued a Finding of No Significant Impact, that 
determined the use of part of the bankruptcy funds to purchase lands 
for the Ozark Plateau National Wildlife Refuge would satisfy the 
regulatory requirement that the settlement moneys be used for the 
federally listed endangered and threatened species and migratory birds 
impacted by the mining at the Site. The Service is actively working 
with the Oklahoma Department of Wildlife Conservation, Oklahoma 
Department of Environmental Quality, and the Tribes in Ottawa County to 
identify further joint restoration opportunities in Ottawa County. In 
addition, the Department is currently working with other trustees to 
determine the total appropriate compensation for other Federal, State, 
and Tribal resources injured by releases from the mine site.
    Funds paid under the NRDAR provisions of the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) are 
separate from funds identified for the remediation or cleanup of a 
superfund site. Remediation funds are administered by the Environmental 
Protection Agency, and earmarked to remove or remediate the hazardous 
substances in the actual mine area. NRDAR funds are also separate from 
any funds that may be used to compensate citizens for adverse health 
effects resulting from the Tar Creek site.
    The majority of the funds to purchase lands and conservation 
easements for the Ozark Plateau NWR would come from the Land and Water 
Conservation Fund (LWCF). Congress appropriates specific funding 
amounts from the LWCF for land acquisition at national wildlife refuges 
annually. The refuges must compete on a national basis with each other 
for the limited annual LWCF funding available. A minority of the funds 
for the Ozark Refuge would come from the NRDAR program as described 
above. Congressional action is not required to expend NRDAR funds.

    Question 3. In Fiscal Year 2001, the FWS paid Adair County and 
Delaware County approximately 52 percent of the funding they were 
entitled to under the refuge revenue sharing program. If the FWS 
acquired the proposed 11,933 acres, how will the expansion of this 
refuge impact the local tax base? Do you anticipate more than a 52 
percent compensation for the loss of tax revenue?
    Response. Land acquired in fee by the Service is removed from the 
county tax rolls. To help offset lost tax revenues, the county receives 
an annual payment in lieu of taxes, as provided by the Refuge Revenue 
Sharing Act of 1935 (16 U.S.C. 7145:49 Stat. 383, as amended). If not 
enough revenues are available in the fund to make full payments, the 
Service distributes the funds proportionately nationwide. Refuge 
Revenue Sharing payments usually exceed the property taxes paid by the 
previous private landowners in cases where agricultural exemptions 
exist, and this has still been the case for many of the Ozark Plateau 
properties, even at a less than 100 percent entitlement level.

    Question 4. There are currently many hunters and fishermen in this 
area. Will the FWS allow hunting, fishing and trapping on the lands 
incorporated into the refuge?
    Response. Expansion of the refuge would provide additional 
compatible opportunities for recreation on tracts with gated caves for 
hunters, wildlife observers, wildlife photographers, and for 
environmental education, interpretation, and scientific research. The 
Refuge will allow hunting on refuge tracts that are large enough to 
provide safe, quality hunts where provisions exist to protect 
neighboring landowners from hunter trespass. The Refuge would not 
directly target acquisition of game fish waters, except as incidental 
to acquisition of lands with cave or forest resources. Fishing 
currently occurs on Spavinaw Creek in Delaware County which flows a 
short distance through one Refuge unit.

    Question 5. Locals have expressed concern regarding the use of 
roads on lands that fall within the refuge expansion. Would those 
living in the area (as well as on in-holdings) be allowed continued use 
of the roads?
    Response. The Refuge will not close any currently used roads that 
access neighboring landowners' properties. Any individual who has an 
inholding within government property would retain their legal right to 
access their property by existing roads or easements. The Service will 
only purchase properties which have a legal ingress/egress easement or 
existing public road. The Service has no intention of acquiring 
properties which may exist only as an inholding within a private 
property, as those habitats would be better protected through 
management agreements or technical assistance.

    Question 6. The U.S. Fish & Wildlife Service (FWS) and the National 
Marine Fisheries Service (NMFS) are developing a new regulatory 
definition for ``adverse modification'' that will determine what 
projects may be conducted within critical habitat. In developing a new 
definition for adverse modification, how will FWS distinguish ``adverse 
modification'' from ``jeopardy?"
    Response. In light of the decision in Sierra Club v. U.S. Fish and 
Wildlife Service, 245 F.3d 434 (5th Cir. 2001), the Department, in 
cooperation with the Department of Commerce, is developing a new 
regulatory definition for ``adverse modification.'' We cannot discuss 
the content of this rulemaking as it is still in the drafting stage, 
however, as you correctly note in your question, the rulemaking will 
address the distinction between the jeopardy and adverse modification 
standards. We will keep you informed of our progress.

    Question 7. Some believe that adverse modification should apply 
when a project impacts one of the ``primary constituent elements'' 
identified by FWS during the designation of critical habitat. Where on 
the spectrum between recovery and jeopardy do you believe that adverse 
modification should lie?
    Response. As stated in our previous answer, we cannot discuss the 
content of this rulemaking, but will keep you informed of developments 
in this matter.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                Jeffords

    Question 1. There is an $8 million increase in the fisheries budget 
request for 2004. However, I do not think that any of this additional 
money is going to the 2 fish hatcheries in my State of Vermont. Could 
you please elaborate on what criteria were used to determine which 
hatcheries would be getting a funding increase?
    Response. The President's budget request for fiscal year 2004 
included an $8.075 million increase for National Fish Hatchery 
operations and maintenance, and a $768,000 increase for fish and 
wildlife management within the fisheries program of the Service. The 
fisheries program uses its Fisheries Information System, including the 
Fisheries Operational Needs System (FONS), to identify priority 
projects for increased funding. Field staff identify projects, which 
are then evaluated and ranked by Regional Offices. Final selection is 
made at the Washington, DC, office in conjunction with the budget 
justification.

    Question 2. I was disappointed to see the funding request for the 
Multi Species Conservation Fund was only $7 million. While this is an 
increase of $2 million over last year's request, it is far short of the 
combined authorized level. The 5 programs within that fund have 
produced great results in the conservation of elephants, rhinoceros, 
tigers, great apes and neotropical birds.
    As you may know, this committee passed legislation last year that 
would have established a similar program for the conservation of marine 
turtles. While I do not want to drain funding from these already under-
funded programs, the marine turtle warrants similar attention.
    Do you have any suggestions for getting more species and more 
funding to these successful programs?
    Response. The Administration's fiscal year 2004 budget request for 
the Multinational Species Conservation Fund represents a 40 percent 
increase over the fiscal year 2003 request. While the fiscal year 2004 
request is below the amounts authorized for these programs, given the 
competing priorities, the Administration and the Service were pleased 
to request an increase in funding for the programs under the 
Multinational Species Conservation Fund.
    As you mentioned, the Fund has played a vital role in providing 
successful on-the-ground support to range countries involved in 
elephant, great ape, migratory bird, rhino and tiger conservation and 
in generating local matching resources from these countries and non-
governmental organizations to benefit these species. The Service is 
aware of the threats facing marine turtles and is reviewing S. 1210, 
the Marine Turtle Conservation Act of 2003, passed by the Senate. We 
would be happy to review any other proposals the committee members 
might have regarding expanding the species covered by the Multinational 
Species Conservation Fund.

    Question 3. The land acquisition budget request is almost $30 
million less than last year's request. While I agree that unmet 
operation and maintenance should be addressed, does the decrease in 
land acquisition funding mean that there will be no growth in the land-
based programs within the entire Fish and Wildlife Service?
    Response. The Federal side of the Land and Water Conservation Fund 
has made an outstanding contribution to protecting America's land over 
the past 38 years. The Service does not have an exact forecast on what 
the land acquisition picture will look like in the future. The current 
reality is that we are faced with increasing pressure associated with 
socioeconomic factors such as urban sprawl, recreational development 
and general population growth. With these factors in mind it is very 
difficult to gauge whether the pace of land acquisition has crested or 
it is still on the rise. However, this request reflects a more limited 
Federal land acquisition program with increased emphasis on 
conservation partnerships. This request also reflects an emphasis on 
the need to balance land acquisition against maintaining lands already 
under our jurisdiction. The amounts included in the budget will be used 
to fund high priority projects that are important in the Service's 
program to protect the Nation's wildlife. The Administration is 
dedicated to protecting and passing on to future generations of 
Americans our important recreational and scenic lands, wildlife 
habitats, improved waterways, and cultural resources.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                               Murkowski

    Question 1. The Greenbook (p. 11) notes progress toward competitive 
sourcing of some activities, after a contractor identified some 3,233 
positions engaged in commercial-type activity. I see that last year 25 
positions in realty management were converted to private contract. 
Specifically what realty management activities were converted? 
Janitorial services? Property assessment?
    Response. The Service used the direct conversion method for 25 
realty acquisition management support functions. Specifically, the 
positions included 9 appraisers, 4 land surveyors, 4 cartographic 
technicians, 4 biologist/global information specialist positions, 3 
survey technicians, and 1 cartographer.

    Question 2. This year you are studying another 100 or so positions 
for conversion, all of which are office automation clerk/assistant 
positions, but would not convert any until next year. Is this effort 
being guided by a plan developed by the original contractor, the 
Service, or the Department, and is the apparent slow pace of conversion 
a part of the plan?
    Response. For fiscal year 2003, 107 office automation clerical 
positions were studied using the streamlined approach. The study was 
carried out by a contractor under an approach approved by the 
Department. The completion of the study, delivered in September 2003, 
resulted in the work remaining in-house.

    Question 3. In 1904, you have asked for another $1 million to study 
another 346 positions. Would this be done under a contract or in-house? 
What types of positions will be studied?
    Response. The Service will be studying all animal caretaker 
positions (over 100) and all biological technician positions (over 550) 
by standard competition in accordance with the new Circular A-76.

    Question 4. It's noted (pp. 11-12) that an independent audit noted 
``reportable conditions.'' It's also noted that ``substantial 
corrective actions'' are being developed to correct ``material 
weaknesses.'' What exactly are the ``reportable conditions,'' 
``substantial corrective actions,'' and ``material weaknesses?"
    Response. The referenced audit was performed on the Service's 
financial statements for fiscal years 2001 and 2002. A brief outline of 
the ``reportable conditions;'' ``material weaknesses;'' and 
``corrective actions'' follows.

    A. Finding (Material Weakness): The Service needs to improve 
processes, controls and financial reporting relating to buildings, 
structures, and construction work in progress.
Corrective Actions:
    <bullet>  Established policies for real and personal property 
assets.
    <bullet>  Conducted a comprehensive inventory to verify the 
existence of Service real property assets and also to validate 
financial information relating to the assets.
    <bullet>  Implemented internal controls to ensure that real 
property data is entered timely and accurately into the Service's 
financial system.
    <bullet>  Established a project action team to determine the 
organizational structure, policies, procedures, technical guidance and 
standards required to be implemented in the Service to ensure high 
quality financial information is maintained and reported relating to 
Service property, plant and equipment.

    B. Finding (Material Weakness): The Service needs to improve its 
controls and processes associated with accounting and financial 
reporting.

Corrective Actions:
    <bullet>  Developed checklists to ensure that major accounting 
operations functions are followed and that required reconciliations and 
analytical procedures are performed.
    <bullet>  Hired additional professional staff and participated in 
Departmental financial management recruiting programs to ensure 
appropriate resources are available to prepare timely and accurate 
financial statements.
    <bullet>  Established standard operating procedures for selected 
accounting functions.
    C. Finding (Material Weakness): The Service needs to improve its 
processes for identifying and reconciling transactions with other 
Department Bureaus. (This was a material weakness for all Department 
Bureaus.)

Corrective Actions:
    <bullet>  Implemented a quarterly reconciliation process for 
transactions with other Department Bureaus
    <bullet>  Implemented policies and procedures established by the 
Department for intra-Departmental transactions.

    D. Finding (Material Weakness): The Service did not properly accrue 
accounts payable at year-end.
Corrective Action:
    The Service contracted with an independent CPA firm to develop 
accounts payable accrual methods based on statistical methodologies. 
These methods were implemented for fiscal year-end and quarterly 
reporting beginning in July 2003.

    E. Finding (Reportable Condition): The Service needs to improve its 
controls and processes associated with accounting for and reporting of 
capital equipment

Corrective Actions:
    <bullet>  Established policy requiring timely entry of acquisitions 
and disposals into the Service personal property system.
    <bullet>  Developed reports, processes, and guidelines to 
facilitate reconciliations between the personal property system and the 
Service's financial system.

    F. Finding (Reportable Condition): The Service needs to improve its 
security and general controls over its financial management systems

Corrective Actions:
    <bullet>  Implemented an entity-wide security program in the 
Service that conforms to the Department security program
    <bullet>  Issued technical bulletins on software development and 
change control, service continuity, and access controls

    G. Finding (Reportable Condition): The Service does not monitor and 
enforce financial and performance reporting requirements for grantees

Corrective Action:
    The Service established reporting policies to ensure that required 
reports are received from grant recipients in accordance with 
established timeframes, and are entered into the Service's grant 
tracking system.

    H. Finding (Reportable Condition): The Service needs to improve 
controls over the interface between its electronic acquisition system 
(IDEAS-PD) and the Service's financial system, and also needs to 
improve the reconciliation process between the two systems

Corrective Actions:
    <bullet>  Corrected problems with the automated interface between 
IDEAS-PD and the financial system
    <bullet>  Developed reports and implemented processes to facilitate 
periodic reconciliations between the two systems

    Question 5. It's noted (p. 12) that Law Enforcement has implemented 
a no-cost internet service for filing import/export declarations at the 
port where the import or export will occur. If on-line filing is 
permissible, does the Service allow telephone filing, and if not, why 
not, since both are remotely filed. What has been done to make the 
system user-friendly for individual trappers who wish to send furs to 
an auction outside the country? Have shipments from individuals gone up 
or down over the past few years? Has the length of time it takes to 
clear shipments from individuals trappers gone up or down, and why? 
Does the person filing pay different fees depending on whether a 
physical inspection is needed?
    Response. In 2003, the Service's Office of Law Enforcement 
implemented a no-cost internet service for declaring wildlife shipments 
which is available for use by all importers and exporters, including 
fur trappers. Called ``eDecs,'' this easy-to-use system speeds the 
declaration process for both our wildlife trade customers and wildlife 
inspectors, expediting shipment clearance and facilitating legal trade. 
For example, fur trappers who frequently send similar shipments to 
similar destinations no longer need to fill out paper forms over and 
over repeating basic information that remains the same from one 
shipment to the next. The system not only stores basic identifying data 
for users, it also keeps a list of the species they declare so that 
they can select information from this list rather than retyping species 
data each time they file a declaration. Trappers can access past 
declarations and communicate directly with wildlife inspectors by e-
mail to ask questions and resolve any problems. No special software is 
required to use the system. Recent upgrades include the addition on an 
on-line billing and payment feature for importers and exporters subject 
to user fees.
    Although the Service has been able to take advantage of the 
public's widespread access to the Internet to offer the ease and 
convenience of on-line filing, our legal mandates and data collection 
requirements limit our ability to offer telephone filing as an option 
for wildlife importers and exporters. With eDecs, the user or inspector 
can print out the declaration form needed for the shipment to clear 
Customs and fax or present it at the appropriate port along with any 
permits that might be required. With on-line filing, we can 
automatically collect the information about the type and quantity of 
wildlife in trade that we need to fulfill our trade monitoring and 
reporting responsibilities under the Convention on International Trade 
in Endangered Species. Use of a telephone filing system would require 
Service staff to retrieve and manually input this information into our 
trade data base, adding another step to the clearance process.
    While the Service does not have the number of shipments declared 
for import or export currently on hand, we do know that introduction of 
our electronic declaration system has reduced the amount of time needed 
to clear shipments from individual trappers. Trappers can more easily 
communicate with inspectors and more quickly input and share data and 
documents. Most importantly, they do not have to travel to the actual 
port where imports or exports will occur. For example, a trapper 
working in a remote location can send a shipment to a designated port, 
have the shipment held while completing all the necessary documentation 
remotely, and then have it exported without ever having to physically 
meet with an inspector or travel to the port. Once a shipment has been 
cleared, a trapper can print out the declaration (without needing to 
get it physically stamped).
    Any shipment requiring Service clearance may be subject to physical 
inspection. Our user fees reflect the full range of inspection duties 
and do not vary based on whether or not a physical inspection is 
conducted.

    Question 6. This year marks the Refuge system Centennial. It looks 
as though activities are scheduled for nearly every Refuge. What is the 
estimated cost of these activities, including the time Refuge and other 
Service employees are putting in to support them?
    Response. The National Wildlife Refuge System's records show that 
there were 236 local events held during the centennial year. The 
average cost to the government for the local events was approximately 
$3,000. The signature event was held at Pelican Island National 
Wildlife Refuge, the nation's first National Wildlife Refuge. This 
national event cost $917,000, of which private partners contributed 
approximately $243,000.

    Question 7. The Greenbook notes (p. 63) that although the Service 
has in a number of cases deemed it ``not prudent'' to designate 
critical habitat, the courts have held the Service to be in error in a 
number of cases. Do you agree? In your view, have these cases been 
pursued adequately? In how many cases has the Service settled with 
plaintiffs? Are there cases you feel should have been pursued but were 
not? If so, why?
    Response. Prior to the U.S. Court of Appeals for the Ninth 
Circuit's decision in Natural Resources Defense Council v. U.S. 
Department of the Interior, 113 F.3d 1121 (9th Cir. 1997), the Service 
found designation of critical habitat ``not prudent'' under the ESA. 
The NRDC decision, however, held that Section 4 of the ESA has strict, 
non-discretionary duties and deadlines for the processing of listing 
and critical habitat actions, and rendered indefensible the vast 
majority of our findings that designation of critical habitat was not 
prudent. Subsequent to that decision, U.S. Court of Appeals for the 
Tenth Circuit, in Forest Guardians v. Babbitt, 174 F.3d 1178 (10th Cir. 
1999), held that district courts have no power to allow us to allocate 
funds to the highest priority actions, and must instead order us to act 
as soon as possible on whatever backlogged action comes before them.
    Most courts have followed the Tenth Circuit's lead. We believe that 
these cases have been adequately pursued; however, we are no longer 
operating under a system that allows us to prioritize resources to 
address the most significant biological needs. We currently estimate 
that we have settled approximately a dozen of these critical habitat-
related litigations. As noted above, given the information provided 
above, we believe that settlement has been a prudent course in these 
matters.

    Question 8. The Greenbook notes (p. 65) that challenges to critical 
habitat designations are increasingly based on a ruling from the 10th 
Circuit Court that addressed the proper extent of required economic 
analyses. Does the Service regard this as dispositive for cases in 
other areas?
    Response. The Service considers the New Mexico Cattlegrowers 
decision to be mandatory authority for the 10th Circuit. The Service 
has also incorporated this holding into all of its economic analyses 
and, as required under the decision, includes all the attendant costs 
associated with the designation of critical habitat in its economic 
analysis.

    Question 9. The Greenbook notes (p. 64) that any interested party 
may petition for listing or delisting, then discusses the steps that 
follow. However, all of the described steps involve listing. Please 
describe the process for delisting. Is the timeline for steps toward 
delisting the same as for listing, or longer? Please explain.
    Response. Delisting is the removal of a species from the Federal 
Lists of Endangered and Threatened Wildlife and Plants, and results 
from successful recovery efforts, a determination that the listing was 
in error, or, in some cases, a finding that the species is extinct. In 
cases where delisting is considered due to recovery, the Service 
follows a process similar to that which is followed when a species is 
considered for listing. The Service must determine that the species is 
not threatened based on a number of factors, including population size, 
recruitment, stability of habitat quality and quantity, and control or 
elimination of the threats.
    If the Service determines the threats have been sufficiently 
reduced, we may consider either downlisting or delisting the species. 
When down-or delisting, we first propose the action in the Federal 
Register, and at the same time seek the opinion of independent species 
experts, other agencies, including State biologists, and the public. 
Based upon an analysis of comments received, the Service makes a 
decision on whether to complete the proposed action or maintain the 
species status as it is. A final decision is announced in the Federal 
Register.
    If the delisting action results from a petition, the timeline is 
the same as for petitions to list.
    More detailed information on this topic can be found on our website 
at http://endangered.fws.gov/recovery/index.html#program.

    Question 10. The Greenbook notes (p. 67) that the necessity of 
responding to court orders on listings has prevented the Service in 
recent years from conducting listing activities according to species' 
greatest risk of extinction, and that the Service is in the process of 
developing a system to prioritize its activities. If this is your view, 
what efforts has the Service made to educate the public about this 
problem? Would you say more public relations effort has gone into this 
issue or into publicizing the Refuge Centennial?
    Response. A great deal of effort and resources have been directed 
toward making the public aware of the problems surrounding the Section 
4 Program. The Department has testified before Congress on several 
occasions concerning the problem. Moreover, the Service has responded 
to media and public inquiries on the problem and has provided the 
public with news releases to describe the problem. In addition, the 
Service's main webpage, located at www.endangered.fws.gov, contains a 
great deal of information on the Section 4 Program.
    The Refuge Centennial is a 1-year event that the Service worked 
hard to publicize, but endangered species issues are a long-term 
commitment that the Service has been addressing as a significant part 
of its mission. This has involved a great deal of outreach, 
coordination, and public education.

    Question 11. The Greenbook identifies planned reductions in travel 
funding, noting that this will reduce the frequency of employee 
relocations from one office to another. It also notes that Service 
employees ``frequently travel to meetings such as professional 
associations.'' Does the Service limit reimbursement for travel to such 
meetings to personnel who are actively engaged at the meeting, such as 
giving a speech or seminar, or is it common to reimburse employees who 
are simply attending?
    Response. The Service does not have an absolute policy to reimburse 
employees for travel related costs of attending meetings of 
professional associations. Rather, the reimbursement is left to the 
discretion of the individual employee's supervisor. If the supervisor 
determines that the attendance at such meetings benefits the Service, 
the supervisor can approve reimbursement for travel costs. Among the 
benefits that can be derived are: receiving training in industry 
standards, professional development, continuing education, and 
promoting awareness of Service projects and initiatives.

    Question 12. What is the currently accepted definition of ``adverse 
modification'' as it applies to critical habitat? Please describe how 
this adequately discriminates between modifications that are likely to 
be adverse to the species continued existence, modifications that may 
be adverse, and modifications where the effect is unknown. Is there a 
policy which requires dealing with the latter as though the unknown 
effect will be adverse? Would you recommend any changes in the statutes 
covering this issue?
    Response. Adverse modification is currently defined in our 
regulations as ``a direct or indirect alteration that appreciably 
diminishes the value of critical habitat for both the survival and 
recovery of a listed species. Such alterations include, but are not 
limited to, alterations adversely modifying any of those physical or 
biological features that were the basis for determining the habitat to 
be critical.'' The issue of how to handle situations where 
modifications are likely to or may adversely affect the species and 
modifications where the effects are unknown is not contained in this 
definition. Congress contemplated the issue of inadequate information 
during the development of the 1979 amendments to the ESA and the 
Service implements the ESA in accordance with the intent expressed in 
the Conference Report (No. 96-697, at 1442, section 4). This report 
reads: ``The amendment will permit the wildlife agencies to frame their 
Section 7(b) opinions on the best evidence that is available or can be 
developed during consultation. . . . This language continues to give 
the benefit of the doubt to the species, and it would continue to place 
the burden on the action agency to demonstrate to the consulting agency 
that its action will not violate Section 7(a)(2).'' Thus, the Service 
evaluates the best available information that will assist in 
formulating a reasonable estimate of the anticipated effects. This is 
extremely fact specific and, therefore, results vary with each 
individual situation. No statutory changes are recommended.

    Question 13. In an inset (p. 81), the Greenbook notes that an 
independent study estimated that without the Endangered Species Act, 
172 species might have become extinct between 1973 and 1998 instead of 
just seven species. Do you agree that the ESA was the deciding factor 
in all these cases? Of the 172 species, how many are now considered to 
be ``recovered?"
    Response. The Greenbook references a study by Mark Schwartz, a 
biologist at the University of California Davis (Schwartz, M., 1999, 
Choosing the Appropriate Scale of Reserves for Conservation, Annu. Rev. 
Ecol. Syst. 30:83-108). In this study, Schwartz developed a modeled 
estimate of the number of listed species expected to go extinct since 
listing, assuming that extinction is a random process and the ESA 
provides no benefits protecting listed species from extinction. He 
found that 192 (we incorrectly cited 172 in the Greenbook) of the 1143 
then-listed species would have gone extinct under these assumptions, 
compared to only 7 listed species then known to have become extinct. 
Because Schwartz's study was a modeled estimate, it did not identify 
specific species likely to have become extinct. Because we don't know 
which species would likely have become extinct, we cannot determine 
which of those species would now be considered recovered.

    Question 14. The Greenbook notes (p. 83-86) that in fiscal year 
2002, one species was delisted due to recovery, one species was 
proposed for delisting, and one species was downlisted, although you 
had hoped to delist three species. This fiscal year, you are also 
hoping to delist three and to downlist two. Now that we are well into 
fiscal year 2003, do you still anticipate meeting this goal? Are some 
of these the same species for which delisting was not completed last 
year?
    Response. In fiscal year 2003, the Service proposed and finalized 
the reclassification of five species and delisted two species due to 
recovery. One of the species delisted in fiscal year 2003, the Hoover's 
wooly star, was proposed for delisting in fiscal year 2002.

    Question 15. I understand you are hoping to delist a total of four 
species in fiscal year 2004. Are any of these species which were 
scheduled for earlier delisting?
    Response. Yes. A proposed listing rule for the Tinian Monarch was 
published on February 22, 1999, and a final rule was originally 
scheduled for fiscal year 2003. However, finalizing this delisting rule 
was delayed due to the need to further address the threat of potential 
establishment of a brown tree snake population on the island of Tinian.

    Question 16. To what degree are endangered species recovery 
planning and recovery activities hindered by litigation affecting 
listing, delisting and the designation of critical habitat?
    Response. We believe the litigation has impacted recovery planning 
and activities to some degree, as we must balance all of our priorities 
with the funding requested and provided. In order to meet court orders 
and settlement agreements related to the Service's listing program, the 
Administration has requested increases for the listing program. This 
increase affects how much we request for all of our priorities, not 
just recovery.

    Question 17. The Greenbook notes (p. 138) that the Refuge Roads 
program created by TEA-21 is limited to maintenance of public-use roads 
and to constructing parking lots, roadside rest areas and bicycle/
pedestrian facilities. In Alaska at least, traditional means of access 
are protected by the Alaska National Interest Lands Conservation Act, 
including the use of snowmachines. Would you support allowing the 
Refuge Roads program, or other public-lands road and trail programs, to 
be used to mark and maintain snowmachine trails where snowmachining is 
a legal activity?
    Response. Service regulations classify snow machines as off road 
vehicles. By law, the Refuge Roads program is currently limited to 
public use roads, parking lots, rest area facilities and provisions for 
bicycles and pedestrians. As a result, by law the Service may not use 
Federal Lands Highway funding for such trails because this is not an 
eligible program activity.
    Alaska refuges do not have specifically marked or identified trails 
just for snow machines. In general, persons travel openly by snow 
machine without being limited to specific trails. The Service has not 
identified any need to within our priority systems mark and maintain 
snow machine trails.

    Question 18. The Service is one of the key players in the 
management of subsistence in Alaska under Title VIII of the Alaska 
National Interest Lands Conservation Act. How has this affected the 
Service's cost of operation? Has the total cost been identified for 
fiscal year 2004?
    Response. The Service, in coordination with the National Park 
Service, Bureau of Land Management, Bureau of Indian Affairs, and the 
U.S. Forest Service, is the lead Federal agency for administering the 
Federal Subsistence Management Program in Alaska. The program began in 
1990 with the primary emphasis on managing subsistence hunting on 
public lands in Alaska, with minimal jurisdiction for managing 
subsistence fisheries. The Service received an initial appropriation in 
the early 1990's of $4.225 million to administer the program.
    Following the expansion of jurisdiction into navigable waters 
pursuant the Ninth Circuit Court ruling in Katie John v. United States, 
the Service received an additional $11.027 million in fiscal year 2001 
to take on this new and significant role in managing subsistence 
fisheries. These funds provide for the administration and operation of 
the Federal Subsistence Board and support for ten Regional Advisory 
Councils in regulating subsistence hunting and fishing on the public 
lands in Alaska; liaison and coordination with the Alaska Department of 
Fish and Game and with participating agencies; law enforcement 
operations; subsistence resource and harvest monitoring programs 
through agreements with the State, Native organizations and others; and 
communicating with Alaskans about the program. The approximate Service 
funding in fiscal year 2004 for Alaska subsistence issues is $15.09 
million, with a total of about $4.2 million for refuges and $10.89 
million for fisheries; however, other agencies also provide funds for 
Alaska subsistence issues.

    Question 19. The Greenbook (p. 5) indicates you are requesting an 
additional 35 full-time equivalency positions (FTEs). However, p. 1 of 
the ``Field Station List in the back of the book seems to indicate 41 
new positions in Alaska alone. Which is the accurate number? Of those 
identified in the ``Field Station List,'' six are identified as 
``Assistant Regional Director--Subsistence Management.'' Why does 
subsistence management require so many assistant regional directors?
    Response. The table on page 5 of the Greenbook reflects the total 
FTE change for fiscal year 2004 in all appropriations. The table on 
pages 33 and 34 shows that this consists of an increase of 84 FTEs in 
the Resource Management appropriation, 2 in the Multinational Species 
Conservation Fund and a decrease of 51 FTEs allocated by the Bureau of 
Land Management for Wildland Fire Management. FTE use may vary widely 
on an annual basis depending on a number of factors including planned 
work, availability of contractor for seasonal work, summer hiring 
program, volunteer support, and position vacancies.
    There is only one Assistant Regional Director for Subsistence 
Management. The funding and FTEs indicated on the Field Station List 
represent the total staff assigned to the office.

    Question 20. The Service presently charges a $55 inspection fee for 
each export shipment of fur pelts and products. For individual trappers 
and operators handling only small numbers of skins, this can be cost-
prohibitive, forcing them to sell at a lower price to a consolidator. 
Years ago, there was an exemption for shipments valued at less than 
$25,000, which was adopted after a study indicated that it was not 
cost-effective to apply the same rules for small shipments. Has the 
Service conducted a study to determine that the $55 fee for shipments 
of even one or two items is appropriate to the cost of inspection for 
small shippers v. large? What can the Service do to reduce harm to 
small businesses by ensuring that costs are more equitably distributed?
    Response. The Service's $55 inspection fee per shipment was 
introduced in 1996 following four separate analysis of our import-
export license and user fee policies. These studies, which were 
conducted by the Department of the Interior, Office of the Inspector 
General, General Accounting Office, and independent non-government 
organizations, all recommended that we should change our regulations to 
recover the full cost of inspections provided to individuals and 
businesses.
    Our current user fee system falls short of the goal of full ``user 
funding,'' since today it only recovers about 50 percent of the costs 
of the wildlife inspection program from the businesses we regulate. The 
fee system, however, deals uniformly with the business community, 
requiring all commercial wildlife importers and exporters to be 
licensed and pay a standard inspection fee of $55 per shipment, 
regardless of value. The nature of inspection services and the 
administrative support they require make it difficult to make a direct 
correlation between shipment value and inspection costs. Shipments of 
high value do not necessarily require more time or work to inspect than 
less valuable shipments.
    The present fee system reflects the belief that the uniform 
application of license and fee requirements would be the most equitable 
and administratively efficient way to operate our wildlife inspection 
program and uphold our wildlife trade enforcement responsibilities. We 
have not conducted a study to analyze the appropriateness of our 
uniform $55 inspection fee because much of the same work at the same 
cost must be completed to inspect and clear any shipment regardless of 
its size or value. We are, however, planning to re-examine our fee 
structure as part of our ongoing effort to maintain an effective and 
efficient wildlife inspection program. While adequate cost recovery 
must, of necessity, remain an objective, we are also committed to 
dealing fairly with wildlife-based businesses.
    We demonstrated this commitment several years ago when we exempted 
certain North American fur shipments from our basic per-shipment user 
fee. This exemption, which applies to shipments containing 100 or fewer 
furs from animals taken in the United States, Canada, and Mexico, was 
intended to reduce the economic burden on individuals who trap, hunt, 
and trade small quantities of furs. This exemption remains in effect.

    Question 21. It is my understanding that the computer systems used 
by the Service to track fur imports and exports are not compatible with 
those used by the Customs Service, which results in additional delays 
and costs. What steps are being taken to correct this problem?
    Response. In July 2000, the Service terminated participation in the 
U.S. Customs Service's Automated Commercial System (ACS). Over the 
years, our wildlife inspection program had experienced numerous and 
persistent problems using the system's automated broker interface to 
file and collect wildlife trade data. Even while operating on ACS, the 
Service continued to require most importers and exporters to file both 
electronic and paper entries. ACS only allowed joint Customs/FWS 
processing of a limited number of large volume commercial imports. 
Service inspection responsibilities, however, encompass personal 
imports, small commercial shipments, museum and scientific imports, 
mail shipments, and all wildlife exports. We thus failed to achieve the 
paperwork reduction and customer service goals that were the original 
reason for joining ACS.
    At that time, we made a commitment to pursue the independent 
development of an automated declaration system for all wildlife imports 
and exports regardless of shipment size, purpose, and method of 
transport (which we describe in our response to Question 5) and to work 
toward a long-term goal of re-establishing direct electronic linkage 
with Customs for clearing wildlife shipments. While lack of linkage has 
created an additional workload for our wildlife inspectors, it has not 
produced inordinate delays or additional expense for our import/export 
customers.
    We are now participating in an interagency effort to create an 
International Trade Data System, which will link all Federal inspection 
agencies dealing with imports and exports.


</pre></body></html>
